<html>
<title> - THE DEVIL THEY KNEW: PFAS CONTAMINATION AND THE NEED FOR CORPORATE ACCOUNTABILITY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                          THE DEVIL THEY KNEW:
                    PFAS CONTAMINATION AND THE NEED
                      FOR CORPORATE ACCOUNTABILITY

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JULY 24, 2019
                               __________

                           Serial No. 116-53
                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-586 PDF                WASHINGTON : 2019


                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Paul A. Gosar, Arizona
Wm. Lacy Clay, Missouri              Virginia Foxx, North Carolina
Stephen F. Lynch, Massachusetts      Thomas Massie, Kentucky
Jim Cooper, Tennessee                Mark Meadows, North Carolina
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Katie Hill, California               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
             Britteny Jenkins, Subcommittee Staff Director
                     Joshua Zucker, Assistant Clerk

               Christopher Hixon, Minority Staff Director
                      Contact Number: 202-225-5051

                                 ------                                

                      Subcommittee on Environment

                   Harley Rouda, California, Chairman
Katie Hill, California               James Comer, Kentucky, Ranking 
Rashida Tlaib, Michigan                  Minority Member
Raja Krishnamoorthi, Illinois        Paul Gosar, Arizona
Jackie Speier, California            Bob Gibbs, Ohio
Jimmy Gomez, California              Clay Higgins, Louisiana
Alexandria Ocasio-Cortez, New York   Kelly Armstrong, North Dakota


                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 24, 2019....................................     1

                               Witnesses

Mr. Bucky Bailey, Affected Resident and Activist, Parkersburg, 
  West Virginia
    Oral Statement...............................................     5
Ms. Emily Donovan, Co-Founder, Clean Cape Fear
    Oral Statement...............................................     7
Ms. Sandy Wynn-Stelt, Affected Resident and Activist, Belmont, 
  Michigan
    Oral Statement...............................................     9
Dr. Jamie C. DeWitt, Associate Professor, East Carolina 
  University
    Oral Statement...............................................    26
Mr. Glenn Evers, President, IS2 Consulting
    Oral Statement...............................................    28
Ms. Catherine R. McCabe, Commissioner, New Jersey Department of 
  Environmental Protection
    Oral Statement...............................................    30
Mr. Robert R. Scott, Commissioner, New Hampshire Department of 
  Environmental Services
    Oral Statement...............................................    31
Mr. Steve Sliver, Executive Director, Michigan PFAS Action 
  Response Team, Michigan Department of Environment, Great Lakes, 
  and Energy
    Oral Statement...............................................    33
Ms. Jane C. Luxton, Partner, Lewis Brisbois Bisgaard & Smith LLP
    Oral Statement...............................................    35

* The prepared statements for the above witnesses are available 
  at:  https://docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The entered into the record for this hearing are listed below, 
  and are available at: https://docs.house.gov.

  * Letters from citizens across the country detailing their 
  fears regarding PFAS chemicals; submitted by Rep. Lawrence.

  * 3M Study; submitted by Rep. Rouda.

  * Meeting minutes from a 1978 3M Meeting; submitted by Rep. 
  Rouda.


 
                         THE DEVIL THEY KNEW:
                   PFAS CONTAMINATION AND THE NEED
                    FOR CORPORATE ACCOUNTABILITY

                              ----------                              


                        Wednesday, July 24, 2019

                  House of Representatives,
                 Committee on Oversight and Reform,
                               Subcommittee on Environment,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2247, Rayburn Office Building, Hon. Harley Rouda, 
(chairman of the subcommittee) presiding.
    Present: Representatives Rouda, Tlaib, Kildee, Dingell, 
Lawrence, Sarbanes, Levin, Comer, Gibbs, Armstrong, and Keller.
    Mr. Rouda. The subcommittee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time.
    This subcommittee is holding this hearing examining the 
chemical industry's past and current production and emission of 
polyfluoroalkyl and PFAS across the United States.
    I now recognize myself for five minutes to give an opening 
statement.
    Good afternoon. This is the second hearing the Subcommittee 
on Environment has convened this Congress to address the 
critical issue of polyfluoroalkyls and polyfluoroalkyl 
substances, a class of manmade chemicals often referred to as 
PFAS.
    Let us not beat around the bush here. The chemicals are 
toxic. They are known as forever chemicals. They do not easily 
break down. Instead, they accumulate in the environment and in 
the human body.
    There is no way to avoid exposure to PFAS chemicals because 
they are found in regular household goods that we use every day 
such as nonstick cookware, waterproof clothing, takeout 
containers.
    In fact, 99 percent of us here in the United States have 
these chemicals in our blood, and to give you an idea of the 
scope of the problem, PFAS chemicals have been found in the 
bloodstreams of polar bears living in the Arctic Circle.
    At our subcommittee's very first hearing of the 116th 
Congress, we examined the crisis of PFAS contamination of 
drinking water in and around military installations largely due 
to the use of PFAS-containing firefighting foam for DOD 
training exercises.
    Veterans who have already risked their lives for our 
country are being asked again to risk them again each and every 
day by drinking water filled with chemicals that have led to 
serious adverse health outcomes in humans including low 
fertility, birth defects, suppression of the immune system, 
thyroid disease, and cancer.
    At our meetings in March, the EPA's assistant administrator 
for the Office of Water, David Ross, agreed that PFAS 
contamination was, quote, ``a national emergency.''
    We agree with Mr. Ross and that is why we are holding 
another hearing today, this time focusing on another major 
source of exposure to these chemicals, corporate pollution 
being the key.
    Companies such as 3M and DuPont, which used PFAS to make 
household products that Americans used in their homes every day 
like Teflon and Scotch Guard knew for decades that these 
chemicals were toxic.
    In the 1970's, DuPont began regularly testing the 
concentration of PFAS in employees' blood. In 1978, an internal 
3M memo reported that PFOA and PFAS, the two most notorious 
PFAS chemicals, and I quote, ``should be regarded as toxic,'' 
unquote.
    You would think that in the United States when we know a 
substance is toxic we would take immediate action to prevent 
corporations from pumping those substances into our bodies and 
the environment.
    But it was only earlier this year that the EPA now said it 
would consider regarding PFOA and PFAS, and in light of the 
EPA's decision last week that it would not ban the use of 
additional chemicals shown to damage brain development in 
children, forgive me if I am not especially confident that the 
Trump administration's EPA will do the right thing regarding 
PFAS chemicals in the necessary timeframe.
    Let us really think about the full extent of what has been 
happening over the last half century. 3M, DuPont, and other 
industrial users knew that PFAS chemicals were bioacccumulative 
and toxic and yet they continued to use products that contained 
PFAS.
    These corporations neglected to tell people what was in 
those products and suppressed the scientific evidence that 
these chemicals were hazardous.
    And they didn't just use PFAS in industrial production. 
They discharge these chemicals into rivers and into landfills 
where they seeped into the groundwater.
    Americans have basically been drinking Teflon and Scotch 
Guard for decades and the worst part is that they didn't even 
know it. This should not be happening. Americans expect that 
the products they use are safe.
    We are rightfully outraged when, say, a toy company recalls 
a product because it contains lead or other toxic chemicals.
    We feel betrayed because we feel that it is the companies' 
responsibility to ensure that its products do not pose a danger 
to our children. When companies violate that responsibility to 
our community, to society, we need to hold them accountable.
    We, in the Federal Government, have stood by as industrial 
manufacturers polluted our households, our drinking water, and 
our food supply.
    We have simply accepted it on faith when these--when those 
industrial polluters started using shorter carbon chain 
alternatives to PFOA and PFAS such as a chemical known as GenX.
    GenX and similar compounds have not been shown to be safe. 
In fact, research indicates that they may be toxic.
    One of our esteemed witnesses here today, Jamie DeWitt, a 
medical professor and researcher, will talk about her work on 
toxicity and GenX chemicals.
    Contrary to what some colleagues on the other side might 
say, I have no problem with 3M, DuPont, and Wolverine, Saint-
Gobain, and other companies turning a profit by making 
Americans want to buy their goods.
    I believe in smart capitalism and good government. What I 
do have a problem with is when these corporations place their 
own bottom lines ahead of Americans' health. Because when you 
buy a product here in the United States the fundamental 
assumption is that the product is safe.
    If you told someone, you can have nonstick cookware--you 
can have waterproof clothing, but it will come to you at the 
cost of your health, your children's health, your liver, your 
kidney, your thyroid, maybe your life, I imagine there is not a 
single person who would make that trade.
    And corporations like 3M, DuPont, and others knew that 
Americans would never make that trade. That is why they 
suppressed and diluted the science that showed how toxic PFAS 
chemicals were because they didn't want Americans to know what 
they were being exposed to.
    We have all heard the saying that with great power comes 
great responsibility. Well, these corporations have indeed 
achieved great power in America.
    But it is time for the responsibility piece to kick in. 
These companies have evaded responsibility for far too long 
already and we are finally going to start holding them 
accountable.
    Both Democrat and Republican state governments have already 
begun to do so, and representatives from Michigan, New Jersey, 
and New Hampshire are here today to talk about the steps they 
are keeping to keep their constituents safe.
    But state action, while immensely valuable, is not enough. 
What we need to take action is at the Federal level immediately 
and I want to assure everyone here today and the American 
people that we in Congress are paying attention and that we 
will not stop paying attention until we are sure that every 
person in the country can drink water from their faucets, from 
their wells, without worrying that it someday might kill them.
    We have already established another hearing on this issue 
for September 10th at which 3M Company and others, hopefully, 
will be here to testify in person.
    We look forward to their appearance and we urge DuPont to 
follow suit and also commit to testifying before the committee 
in the fall.
    Thank you, and I now invite the subcommittee's ranking 
member, Mr. Comer, to give a five-minute statement.
    Mr. Comer. Thank you, Mr. Chairman, and good afternoon and 
thank you for today's hearing on a large group of chemicals 
collectively known as PFAS, and I join the chairman in thanking 
all the witnesses for appearing before us today.
    Potential drinking water contamination is frightening for 
any community and I am glad we are holding a second hearing on 
this topic to both hear from impacted communities and consider 
appropriate responses.
    PFAS substances provide strength, durability, and 
resilience in a broad range of applications. Since the 1940's, 
PFAS have been used in such products as medical devices, 
nonstick cookware, roof coatings, stain-resistant fabrics, food 
packaging, firefighting foams, waterproof clothing, and 
countless others.
    Unfortunately, scientists have found evidence that at least 
some PFAS substances break down very slowly in the natural 
environment, travel easily through the water and air and soil, 
and can accumulate in the human body.
    Scientists have also found evidence that sustained exposure 
to certain PFAS substances above specific levels can lead to 
adverse health effects.
    Nearly everyone has some detectable concentrations of PFAS 
in their blood. It is worth noting that as U.S. industry has 
stopped manufacturing certain PFAS, including PFOA and PFOS, 
and started using alternative substances that are less likely 
to accumulate in the body, blood levels of those substances 
have declined significantly in the past few years.
    In February of this year, EPA launched its first ever PFAS 
action plan. In it, EPA outlined and gave estimated timeframes 
for a number of short-and long-term actions to minimize risk, 
increase scientific knowledge about the broad range of PFAS 
substances, prevent exposure, and cleanup existing 
contamination.
    The plan also outlines EPA's actions to coordinate with 
other Federal agencies and state, local, and tribal governments 
to address the issue.
    I am committed to working with my colleagues on solutions 
that will contain any existing damage from legacy PFAS 
substances and reduce the risk of future harm.
    But I also hope that we, as a body, make responsible 
evidence-based science-driven decisions. It is important to 
note that nearly 5,000 chemical compounds make up the PFAS 
family.
    These compounds have different structures and 
characteristics, which means they also have varying health and 
environmental impacts.
    Thorough research has only been done on a small number of 
these compounds. So we should be very careful about taking any 
sweeping actions that could have the unintended consequence of 
negatively impacting a broad segment of the economy including 
critical public entities like hospitals and airports.
    Any legislative or regulatory actions we consider should be 
based on a solid scientific understanding of the toxicity of 
specific compounds.
    Again, thank you to the chairman for convening today's 
hearing and I look forward to hearing from our witnesses.
    I yield back.
    Mr. Rouda. Thank you, Ranking Member.
    Now I would like to welcome our witnesses: Bucky Bailey, an 
affected resident and activist from Parkersburg, West Virginia; 
Emily Donovan, co-founder, Clean Cape Fear; Sandy Wynn-Stelt, 
affected resident and activist from Belmont, Michigan.
    If you could all please stand and raise your right hands I 
will begin by swearing you in.
    [Witnesses are sworn.]
    Mr. Rouda. Please let the record show that the witnesses 
answered in the affirmative.
    Thank you. Please be seated. Please note the microphones 
are very sensitive so make sure you turn the button on and lean 
in and speak directly into them.
    Without objection, your written testimony--written 
statement will be made a part of the record.
    With that, Mr. Witt, you are now recognized to give an oral 
presentation of your testimony for five minutes.
    I am sorry. Mr. Bailey. Apology.

  STATEMENT OF BUCKY BAILEY, AFFECTED RESIDENT AND ACTIVIST, 
                   PARKERSBURG, WEST VIRGINIA

    Mr. Bailey. Thank you, Mr. Chairman, thank you, Congressman 
Comer, for both of your opening statements.
    Thank you for the opportunity to testify. Again, my name is 
William Bailey and I am here today to share the effect that the 
widespread industrial contamination has had on my family and 
myself.
    I was born in Parkersburg, West Virginia, in early 1981 
with numerous birth defects. I only had one nostril, a keyhole 
pupil, and a serrated eyelid all on my right side.
    I struggled to breathe normally immediately after birth and 
the doctors told my family it was likely I wouldn't make it 
past the first night.
    My mother, who was in shock at the time of my birth, had no 
idea what could have caused my birth defects. While pregnant, 
she was a full time employee of DuPont at the Washington Works 
facility in Parkersburg, West Virginia.
    Her role at DuPont was to control the production of the 
Teflon, or PFOA or C8 in a combined area--confined area, excuse 
me--keeping the bubbling chemicals under control and pushing 
the excess chemicals, in her words, out back.
    After my birth and recovering and from the hospital my 
mother recalls receiving phone calls from DuPont 
representatives inquiring about my health.
    Upon returning back to work, she found evidence that other 
pregnant women were removed from the Teflon line. She also 
found studies from 3M, a former manufacturer of Teflon, which 
found the same birth defects after being exposed to the 
chemical.
    Nevertheless, she was reaffirmed by DuPont that C8 was not 
the cause of my birth defects. After dozens of reconstructive 
surgeries between the ages of two and five, my family moved to 
Virginia as my parents felt the call to start a church in 
northern Virginia.
    With no health insurance at that time, my parents went to 
court to demand that DuPont simply pay for the reconstructive 
surgeries.
    However, door after door was closed to us by lawyers who 
refused to take cases against a corporate giant like DuPont.
    Around the age of 25, I came into contact with Rob Bilot 
and I was made aware of the litigation, the settlement, and the 
scientific study that was happening.
    I was so glad to hear this. I never thought the day would 
arrive, and I knew the results of the study would show the 
disposal and the contamination of the water and the air would 
be made known publicly.
    I was disheartened to find out that some of the sicknesses 
and diseases that my mother was facing was because by this 
contamination and linked by scientific study.
    Knowing that other friends and acquaintances who were 
battling these sicknesses and diseases including some who had 
lost their lives broke my heart.
    My deformities were not determined to be a result of the 
contaminations despite admissions by DuPont scientists stating 
that evidence C8 could harm fetuses.
    Upon further testing on myself, scientists concluded that 
my children would have a 50 percent chance of the same 
deformities that I had, and being newlywed, it nearly destroyed 
all hopes I had at building a family with my wife.
    I knew there was no way that I could subject my children to 
the looks, to the ridicule, to the years of medical procedures, 
and other battles that I faced I knew they would encounter.
    A decision to trust my faith in God took approximately 10 
years before my wife and I pursued pregnancy. With my son, now 
three years old, and daughter, now three months old, completely 
whole and healthy, I am so thankful that they have been spared 
the issues that I have dealt with my entire life.
    However, today I have another reason for trepidation. With 
my high levels of C8 chemical in my blood, will I have to 
endure kidney cancer?
    Will I have to endure testicular cancer, ulcerative 
colitis, thyroid disease, and high cholesterol?
    Will I have to endure those six--one of those six diseases 
that were linked to this scientific study? Will I lose my life 
to one of these diseases?
    I am honored to testify before this committee today and I 
must express that action is as important as oversight. I feel 
that we, more so than any, have the means to provide everyone 
with clean water.
    PFAS discharges should be subject to the Federal Clean 
Water Act. Polluters such as DuPont and 3M should not be 
allowed to simply discharge PFAS into our water supplies.
    I strongly support the Capito-Gillibrand amendment to the 
Senate version of the NDAA, which requires polluters to report 
these discharges.
    I believe that polluters like DuPont and 3M should be 
required to pay their share of the cleanup costs. The Dingell-
Kildee amendment to the House version would ensure this.
    And finally, we need to take further steps in monitoring 
our water. We must monitor the PFAS levels.
    Again, I am honored to testify to this committee today and 
hope that my words will somehow initiate the change in the 
standards that we set.
    Thank you.
    Mr. Rouda. Thank you, Mr. Bailey.
    Ms. Donovan, five minutes for your opening statement.

    STATEMENT OF EMILY DONOVAN, CO-FOUNDER, CLEAN CAPE FEAR

    Ms. Donovan. Thank you, Mr. Chairman, and members of the 
subcommittee for elevating the issue of PFAS water 
contamination to the highest level possible.
    My name is Emily Donovan and I wear multiple hats. I am a 
youth director at a church--a Presbyterian church on 
Wrightsville Beach. I am a wife and a mother raising 10-year-
old boy/girl twins, and I am also co-founder of Clean Cape 
Fear.
    We are a water advocacy group that formed after learning 
DuPont Chemours was dumping large quantities of highly toxic 
PFAS into our primary source of drinking water, the Cape Fear 
River.
    Today, I would like to speak to you as a mother who has 
spent the last two years getting a crash course in 
biochemistry. Imagine waking up to headlines that the same 
company who spent a historic $670 million to settle over 3,500 
lawsuits in another state for poisoning their drinking water 
was doing the exact same thing to yours.
    That is exactly what DuPont spinoff Chemours did with GenX, 
their C8 replacement for making Teflon, and GenX was only 12 
percent of the total PFAS found in our finished tap water.
    I am largely here today because a handful of scientists 
from North Carolina stumbled upon something in the Cape Fear 
River at alarmingly high quantities and decided to investigate 
it.
    Due to their tireless research, we now know at last 25 
different PFAS have been discovered in our finished tap water 
and in private wells around DuPont Chemours facility in 
Fayetteville.
    We learned early on through court documents that DuPont 
Chemours has mastered the art of deception. I believe this 
chronic polluter has no problem exposing millions of citizens 
to these toxic chemicals.
    It has been two years since we learned about GenX and our 
worst fears have been confirmed. We have detected over 50 
different PFAS in our air, soil, and water, all coming from 
Chemours.
    The FDA has found GenX and a slew of other PFAS in the 
produce at a farmer's market near Fayetteville. Wilmington 
residents have three times more C8 PFOA in their blood than the 
national average and two times more PFOS and these two 
chemicals were phased out a decade ago.
    Residents also have a special chemical cocktail found in 
the blood not seen anywhere else in our state. Some of these 
PFAS were in 99 percent of the blood samples take. Ninety-nine 
percent.
    Ask any scientist and they will tell you rarely does a 
study find 99 percent of a toxin in every person's--in every 
person studied.
    We still know nothing about the majority of these chemicals 
in our finished tap water and local produce around Fayetteville 
and in Wilmington residents' blood. Not a single health 
official, scientist, or policymaker can tell me if the 16 
mystery PFAS I found in the tap water at my son and daughter's 
public school are safe to drink.
    There are no recommended dose levels. There are no toxic 
mixture studies to guide me on how these chemicals interact 
with each other or could potentially harm my children as they 
grow up, and it sickens me to think that I may have hurt my 
children by simply raising them to drink the tap water. I will 
forever wonder if that choice will one day cause them major 
medical harm.
    I now send my children to school with water bottles filled 
with the reverse osmosis water because it seems to be the only 
reliable filtering method to remove these toxins and RO filters 
are incredibly expensive.
    I pray daily it is enough to keep them hydrated the whole 
day. I worry constantly about the children drinking the school 
tap water because their parents are either unaware or can't 
afford to access properly filtered water.
    And it is not just parents who are worried about their 
children. We, as adults, are also worried about our own health. 
These toxic chemicals do not act equally in our bodies. Some 
people may never develop serious health problems while others 
aren't so lucky.
    Our state's leading PFAS toxicological researcher publicly 
stated the true impact of GenX may take years to become known 
because cancer takes time to reveal itself in humans.
    I am here to tell you--to testify today that Wilmington-
Fayetteville area residents are already showing signs of 
obscure and rare cancers, immune disorders and diseases in 
populations far too young to pass of as normal.
    How many of your friends are battling cancer? I am 42 and 
my friend, Sara, is battling stage three colon cancer. My 
friend, Tom, who is here today, has terminal brain and bone 
cancer, and my friend, Cara, has stage three breast cancer, her 
gall bladder stopped working and recently developed 
hypothyroidism, and her mom has blood cancer and her dad over 
here has leukemia and bladder cancer. And my own husband had a 
benign brain tumor and almost lost his eyesight, and I am 
frightened.
    We already know testicular cancer is on the rise in our 
region. We have a large thyroid cancer cluster, nearly double 
the state and national average in Brunswick, Pender, and New 
Hanover Counties.
    Cancer is a reportable illness. We have 24 years of data 
available at the Federal and state level. We deserve to know if 
cancer clusters are associated with high levels of PFAS 
exposure in communities across the country. The ATSDR has 
excluded looking for cancer from their national PFAS exposure 
study. Why?
    Every utility should be required to test and monitor for 
PFAS in their drinking water regularly. PFAS as a class should 
be added to the toxic release inventory so states like North 
Carolina can monitor their use.
    The public needs to know which consumer products contain 
PFAS in order to make informed choices on how to reduce 
continued toxic exposures and, ultimately, we need to make it 
illegal for companies to discharge PFAS as a class into our 
air, soil, and water source.
    We shouldn't have to be forced to sue Chemours in order to 
get them to pay for the damages they have done. We need PFAS to 
be listed as hazardous substances to unlock the EPA's authority 
under Superfund law and to seek cleanup costs for our 
contaminated, municipal, and private wells, and we need you to 
act swiftly.
    I have a community letter signed by a thousand of my 
neighbors begging you for action.
    Ms. Donovan. Please, we need you to do whatever it takes to 
protect the public.
    I am begging you to engage your humanity and find the moral 
courage to protect the most valuable economic resource--human 
life--because it is already too late for some of us.
    Thank you so much for your time. It was an honor to testify 
before your committee.
    Mr. Rouda. Thank you, Ms. Donovan.
    Ms. Wynn-Stelt?

STATEMENT OF SANDY WYNN-STELT, AFFECTED RESIDENT AND ACTIVIST, 
                       BELMONT, MICHIGAN

    Ms. Wynn-Stelt. Thank you all for letting me come here and 
speak. I am here representing the people of Belmont, Michigan, 
which is north of Rockford.
    Our community has been devastated by PFAS contamination. My 
husband, Joel, and I were married in 1991. Joel was a 
Children's Protective Services worker and I work in mental 
health, and when we bought our first home in 1992 all we wanted 
was peace and quiet.
    We found a home that we thought was perfect. It was across 
the street from a Christmas tree farm, and Christmas trees make 
great neighbors.
    We thought it was the perfect location. Joel and I were 
best friends. I have never met anyone so smart and funny and 
passionate as he was, and we absolutely adored each other.
    I am sorry.
    In 2016, we were getting ready to celebrate our 25th 
anniversary and Joel had some stomach problems. He went in for 
what we thought was a minor hernia surgery. But he was 
diagnosed with stage four liver cancer and he died three weeks 
later, and my world was shattered.
    And if you have lived through the pain of losing your 
partner and your provider and your protector you would know the 
pain that that feels. But I pray you don't know that pain.
    A year later, two people from the Department of 
Environmental Quality came to my home and asked to test my 
water for PFAS. I had never heard of PFAS. But, again, my life 
changed.
    My water was tested initially at 27,000 parts per trillion, 
well above the 70 parts per trillion that the health advisory 
level is at.
    They assumed that was an error. It was tested again at 
38,000 parts per trillion, and last week it was tested at over 
80,000 parts per trillion in my water.
    Over time what we learned was that my groundwater had been 
contaminated by Wolverine Worldwide, the manufacturers of 
Hushpuppy Shoes.
    The Christmas tree farm that we loved so much was actually 
a dump site for tannery waste, and they would bring huge semi-
trucks full of tannery waste, including Scotch Guard, and dump 
it in giant troughs and when those troughs would fill they 
would dig another one and another one and another one.
    And when that acreage filled they would dig down through 
the clay barrier until they hit the groundwater, and it has 
contaminated 25 square miles of groundwater now.
    The dumping ended in the 1970's. But we did not move into 
the home until the 1990's and we were never told that this 
dumping occurred. We never knew that there were these forever 
chemicals that were in our water.
    In November 2017 my blood was tested and it was found to be 
at 5 million parts per trillion, or 750 times the national 
average. My neighbors and I cannot fix this in any way. Our 
township, like many, has no money to put in funding for cleanup 
of this and we cannot afford municipal water.
    Because of the contamination, we cannot put in new wells 
and we cannot expand the existing wells we have. So if our well 
dies, which has happened, we have no way of getting water.
    I have people in Grand Rapids, Michigan, who do not have 
water. Children in our neighborhood cannot play in the 
sprinklers. They can't swim in their pools. They can't eat food 
from the gardens.
    We are not a neighborhood that borrows sugar anymore. We 
borrow jugs of water from each other in 2019.
    So I come to you today asking you to take swift action to 
ensure that your communities as well do not end up in this 
position. We need manufacturers and polluters to be held 
responsible for the contamination that they have done.
    Taxpayers in no way should be burdened with this cost. We 
should not be the ones that are charged with doing this while 
corporations have profited for decades over this chemical.
    We need PFAS to be designated as a hazardous substance 
under Superfund so that we can get the EPA to hold polluters 
accountable.
    We need to require that people who use this report where 
they have put it and how those chemicals are disposed of, and 
we need this to be part of the Federal Clean Water Act.
    And finally, we need to be proactive in the future. We 
cannot let new generations of chemicals just be used and sold 
and dumped without researching the health effects. They should 
be--it just shouldn't be allowed.
    I have lost so much. I have lost my husband and my best 
friend. My home that we saved for and we paid off is now worth 
nothing. I have come to terms with the fact that this chemical 
that is in me will probably result in my demise.
    But in my neighborhood there are 22 children under the age 
of 13 that live within a quarter mile of this dump site. They 
were raised on this water.
    And you have a responsibility to protect them and I am 
asking you to do that and to do that quickly.
    Thank you for your time.
    Mr. Rouda. Thank you, Ms. Wynn-Stelt, and all of the 
witnesses for your testimony.
    At this time, I would like to have Congresswoman Tlaib have 
five minutes of questioning.
    Ms. Tlaib. Thank you so much, and thank all of you so much 
for your courage to advocate on behalf of so many families that 
might not be here in this room but we are going to bring them 
in this room.
    Just like so many of you did by having someone physically 
being here but in your spirit and I just want to thank you all 
so much.
    I am sincerely very fearful as well of the human cost, and 
I want to thank so much Ms. Wynn-Stelt for your heartbreaking 
story, for sharing that, and for exposing what it looks like to 
do nothing with corporate polluters and what the serious human 
cost is.
    People are suffering because of this carelessness, because 
of corporate greed, and I hope your story continues to help 
expose that and continues to help so many other families.
    As we all know, the state of Michigan has initiated a 
lawsuit against Wolverine. But that is not nearly enough, and 
we all know that, to really truly stop this and prevent it from 
happening over and over again.
    We desperately need Federal action, like you said, Ms. 
Wynn-Stelt. I think everything that you mentioned is things 
that we should be able to do easily.
    But we not only have to investigate Wolverine, 3M, and 
DuPont and other companies for their egregious and reckless 
actions but also to ensure that other Americans are spared from 
the effects of these toxic chemicals being carelessly and 
irresponsibly dumped in their back yard, literally.
    Ms. Wynn-Stelt, in your testimony you said that you lived 
in your home for 25 years before you found out through the 
Michigan Department of Environmental Quality that your well 
water might be contaminated.
    Did you ever get a knock on the door, a phone call, or a 
notice from representatives from Wolverine or 3M which supplied 
the Scotch Guard that Wolverine used in its production telling 
you that the water around your home had been exposed to 
contamination or that they were concerned about the health risk 
of PFAS exposed to your family?
    Ms. Wynn-Stelt. Thank you for your thoughts and your 
comments.
    No, we had not been ever notified that that was the case. 
We had heard sort of through the neighborhood that perhaps 
Wolverine had owned the land. But we were unaware that there 
had been anything dumped that was dangerous or toxic.
    The challenge with this chemical is you can't see it. You 
can't taste. You can't smell it. You don't know it is there. So 
there could be, literally, millions of people in the same 
position that I was in.
    Ms. Tlaib. And for over 25 years, no representative of 3M 
or Wolverine could even have the energy to walk across the 
street or even call you.
    But yet, they had the energy to come to Michigan to speak 
with Wolverine executives and yet, not--that they--you know, 
yet they would not come to people like you to tell you that 
they are poisoning you and that, to me, is reprehensible.
    There is a definition--there is a definition of putting 
corporations over people. You know, for me, that is essence 
what it is, and there are Michiganders like you and this little 
child, which I really am so glad you brought it because 
sometimes we need to truly put a human face to this.
    I have here a picture of a little boy living in your 
community who has PFAS level in his blood that is nearly 
500,000 parts per trillion.
    Ms. Wynn-Stelt, you are familiar with his family. Could you 
briefly describe some of the concerns that you have for this 
little boy's health?
    Ms. Wynn-Stelt. Well, he is just too cute is part of the 
problem but he is----
    Ms. Tlaib. I know. I have my--I have my eight-year-old here 
in this--yes.
    Ms. Wynn-Stelt. Yes. Oh, hi. Yes. He is three, I think, 
now. He has very high levels. What has happened is we have--his 
family has discovered that his vaccines were not effective and 
so he has had to get booster vaccines because there is 
immunological issues that occur with this, especially in 
children.
    And so I think as we hear about measles epidemics and 
things like that that go on that is terrifying for families 
that maybe have experienced this.
    Ms. Tlaib. And I imagine this little boy's story is not 
unique, as we heard from some of you on this panel. Are there 
any of those children, to your knowledge, suffering from any 
problems that are currently linked to PFAS contamination?
    Can you tell me of any stories about adults in your 
community that are also suffering from these health problems?
    Ms. Wynn-Stelt. I know of--I mean, like Emily talked about, 
we all know of people that have had cancers. We know of 
children that have had cancers, of thyroid conditions, of all 
of those things. The challenge is making that connection.
    Ms. Tlaib. And, you know, for me I represent the 13th 
congressional District, which is Wayne County, Detroit, and 
surrounding communities. People always think this is a rural 
issue, that this is outside.
    But we found PFAS in Del Ray near the construction of the 
new bridge to Canada. When they were there, they found PFAS. 
They found PFAS in Melvindale and Downriver, which I share with 
Congresswoman Debbie Dingell and the communities there.
    That, I think, Mr. Chairman, it is very important for folks 
to know this is widespread--that this is not just well water. 
This is not just the community but we are finding it everywhere 
where there is high industry and high corporate polluters.
    So I thank you so much for your leadership and thank you so 
much for my Michigan delegation being here and trying to lead 
this, and thank you all again for your courage.
    Mr. Rouda. Thank you.
    And I want to reemphasize again that the EPA right now is 
70 parts per trillion and I believe what you just said was that 
that young boy is 500,000 parts per trillion and you are at 5 
million parts per trillion.
    Okay. And there is some debate as to whether 70 parts per 
trillion is too high.
    Let us move on and recognize Ranking Member Comer for his 
questions for five minutes.
    Mr. Comer. Thank you, and again, thank you all for you--for 
your testimony.
    The EPA has announced $3.9 million grant for two research--
research grants, and the earlier--in April the CDC announced up 
to six grants for $3 million for studies on the human effects 
of exposures to PFAS through drinking water.
    I want to ask each person on the panel what--how do you 
think that money should be spent in research? How do you think 
that money should be--should be spent?
    What should the EPA and the CDC--what should they looking 
for to help try to determine a solution to the problem? And any 
of you can begin.
    Ms. Donovan?
    Ms. Donovan. Cancer is well documented. I mean, it is one 
of the only human diseases that has a national registry and 
state level registries.
    It is not difficult to go and look at every cancer and then 
correlate it back to exposures, and take blood serum where 
needed in those contaminated communities. We are already the 
human guinea pigs.
    We have already been exposed to these compounds. There 
doesn't need to be any more research. There doesn't need to be 
any more studies. You just need to go and start linking it 
because we know it is there. I mean----
    Mr. Comer. Well, how--you know, and look, both my parents 
passed away from cancer. I mean, it is very prevalent in my 
family and a lot of families.
    Ms. Donovan. It is not normal.
    Mr. Comer. Let us just talk about the link and how would 
you link it, just----
    Ms. Donovan. Well, I would leave that up to the scientists 
because I am not one. And so I am sure we should probably defer 
to them.
    Mr. Comer. Right. Okay.
    Ms. Donovan. But one thing I do know is I live in a 
community where I am tripping over people who are sick, and 
they are even willing to come here today. They are in the 
audience. So we know it is there.
    The EPA can find it, put the money toward it. I don't know 
why cancer is not being added to the national PFAS exposure 
study. It should have been.
    Mr. Comer. Okay. Ms. Wynn?
    Ms. Wynn-Stelt. I would agree. I am not a scientist and I 
am not a researcher, so I would leave that up to them. But I do 
worry that sometimes you can get into analysis paralysis here 
where we are just looking and looking and looking rather than 
acting.
    If the research is saying that we believe there is a link 
then we should assume there is a link and act on that and not 
wait to just keep uncovering more and more research.
    So that would be my suggestion.
    Mr. Comer. Okay. Thank you.
    Ms. Donovan. Can I add one more comment?
    Mr. Comer. Yes, ma'am.
    Ms. Donovan. I mean, there is a peer-reviewed article that 
is coming out almost daily about the dangers of these 
chemicals. The science is behind us on this one. It is there.
    Mr. Comer. Okay.
    Mr. Bailey?
    Mr. Bailey. Thank you for the question.
    My first reaction was $3.9 million with an M seems quite 
low when the industry is by one manufacturer $25 billion a 
year. Leave it to the scientists, but we have a foundation 
already.
    We have done a study of 70,000 people that have linked 
diseases. There is something to buildupon. I think it is, you 
know, giving them the ability to act more than anything.
    Mr. Comer. Right. And I guess my next question would 
revolve around--because we want to be helpful here. We want to 
try to come up with a solution.
    You know, when there are a lot of issues we face in 
Congress it is hard to get bipartisan agreement on very many 
things. But it is bipartisan that we want clean drinking water.
    It doesn't matter if you are conservative or liberal or 
moderate; we all want clean drinking water. There is no 
question about that.
    I assume you don't feel that the education levels are where 
they need to be in the communities that have higher 
concentration rates of PFAS and how do you better get that 
information out to the residents? Or do the residents already--
are they well aware of the higher levels of PFAS in the water?
    Ms. Donovan. I mean, in our community, you know, there is 
definitely more research--not research but there is definitely 
more communication that needs to be done. Our physicians----
    Mr. Comer. Let me--who is communicating? Just for my 
knowledge, who is----
    Ms. Donovan. Who is? Well----
    Mr. Comer. Is the EPA doing anything? Is the local 
government----
    Ms. Donovan. There is nothing. Well, because this is--these 
are unenforceable unregulated chemicals. There is no 
documentation. So we are grabbing at straws.
    Our doctors that deal in endocrinology they are seeing 
large cases in our community and they know there is a problem, 
and when they go to the books that they are supposed to go to, 
to try and figure out what this is, there is nothing there. The 
EPA is not providing them with anything and the states are 
scrambling to try to provide us with things.
    When we found out about GenX in our water, at the state 
level our toxicologists struggled to even find the studies to 
try and create a safe drinking water level and we were the only 
state to create 140 for GenX, and that was--that took two weeks 
to try and figure out what that was.
    Mr. Comer. All right. Thank you.
    Mr. Chairman, my time has expired.
    Mr. Rouda. Thank you, Ranking Member Comer.
    This is a very important topic and I am thrilled that we 
have bipartisan support and you here today to help us 
understand how immense this issue is and how much work we have 
in front of us, and we also have several members here that have 
joined our subcommittee, and without objection, I would like to 
have them authorized to participate in today's hearing.
    And those four individuals include Representative Lawrence 
from Michigan, Representative Kildee from Michigan, 
Representative Dingell from Michigan, and Representative 
Sarbanes from Maryland.
    Mr. Rouda. And with that, I recognize for five minutes 
Representative Lawrence.
    Ms. Lawrence. Thank you, Mr. Chair.
    I want to start by thanking the witnesses today who had the 
courage to come, and without objection, Mr. Chairman, I would 
like to submit into record letters that have been sent from 
citizens of this country detailing their fears.
    Mr. Rouda. So moved.
    Ms. Lawrence. Dr. Kyle Horton, a physician in Wilmington, 
North Carolina, wrote, saying, ``I hope other physicians will 
never know the heartbreak of facing a patient with cancer, 
asking if their tumor was in part caused by poisoned water 
coming out of their taps, and the same water their children are 
drinking,'' and he states, ``I cannot tell you the pain of 
having to always say, 'I don't know.'"
    He also states, ``May you never have to know what it is 
like talking to a breastfeeding mother who cannot afford 
filtered water in her home.''
    Also, I have from a resident of this great country, Karen 
Pignetti, a resident of Westfield, Massachusetts, who writes, 
``I am one of many who have been exposed to this poison in my 
drinking water.
    I am one of many who turns on my faucet to make dinner for 
my children and wonder if I am hurting my child. I am one of 
many burdened by the cost of bottled water.
    I am one of many being taxed out of my home and paying 
extremely high water bills to pay for someone else's mess.''
    These stories remind me of what we recently went through in 
Michigan, and I was with the leadership of Congressman Kildee. 
We were so engaged, and you know what started the fight? Were 
people just like you who said something is wrong.
    They repeatedly told us something is wrong, even when the 
government said, oh, there is nothing wrong with it, and even 
the shenanigans of a Governor drinking the water--see, it is 
okay--and went home to his safe water.
    So I want to thank you because we cannot have another Flint 
water crisis. I am so committed to it. I sit on Appropriations 
and I want you to know it may not seem like a lot but it wasn't 
there before. Eighteen million dollars has been appropriated 
for research and study of PFAS. It is just the beginning.
    But I want you to know I am so sensitive to this--to this 
issue and I say repeatedly in America a basic human need to 
live as a human being is water, food, and shelter, and water 
must be clean, it must be safe, and it must be affordable.
    To the panel in the brief time I have left, all of you have 
gone around the country telling your story, and I am sure you 
have met other people harmed by PFAS.
    Can you tell us about your interactions to these 
communities and how widespread you feel it is? And also, you 
touched on it, Ms. Donovan, that--I am sorry, it was with you, 
Ms. Wynn, that the local communities don't always have the 
money, and that is why you are sitting in front of us in 
Congress to fix this issue.
    So whoever wants to comment on that.
    Ms. Wynn-Stelt. Thank you for your commitment to this. I 
greatly appreciate it.
    I have spoken to some people by accident. I didn't realize 
it was this big of an issue. I am lucky in Michigan because 
Michigan has really stepped up trying to find this and I think 
we are frightened how much they did find it.
    But we are finding it everywhere, not only in our state. I 
got a call yesterday from someone from Maine trying to find 
some help with this.
    So I think to think it is just in one particular state or 
another would be foolish on--at the Federal level. I think this 
is a bigger problem than what we realize, and we just have to 
fix it.
    Ms. Lawrence. Yes.
    Ms. Wynn-Stelt. We just have to fix it. We can't argue 
about it. We can't debate it.
    Ms. Lawrence. I agree.
    Ms. Wynn-Stelt. It just has to be fixed.
    Ms. Lawrence. I agree.
    Yes, Ms. Donovan?
    Ms. Donovan. EWG has a great tracking map and in the map it 
showed what Michigan looked like before Michigan did its full 
statewide testing, and then it shows what Michigan looks like 
after Michigan did its testing.
    And so, locally, I would have friends go, ``Well, don't 
move to Michigan,'' and I am, like, no, that is not it. 
Michigan tested. When you test for these you will find them, 
and if we started testing for these chemicals we will find them 
in every community. I feel we will find them in almost every 
community.
    Ms. Lawrence. I also want to say when we--there is also a 
bill that I submitted that every public school should be tested 
for the water.
    You would be surprised how many schools actually have 
plastic bags around drinking fountains because for some random 
reason they tested the water and found that water has been 
coming out of these taps for years that is contaminated with 
lead.
    Just keep in the fight. You are making a difference. We saw 
it happen in Flint and we can do this.
    Thank you so much.
    Mr. Rouda. Thank you.
    The chair recognizes Congressman Gibbs for five minutes.
    Mr. Gibbs. I thank the chair and thank you for the 
witnesses to your bravery to come here and, you know, no family 
should have to go through what you have gone through.
    So I want, just for clarity, to start with Ms. Wynn-Stelt. 
You talked about the dumping. I assume this was a legal dumping 
or they had permits or tell--okay, just let me know. You know, 
because you shouldn't just be able to go out and just dump 
stuff.
    Ms. Wynn-Stelt. Yes. Thank you for the question.
    I will try and explain it. I believe at the time it was a 
legal dump. However, I think there were some--I am not clear on 
all of it and I am actually involved in litigation.
    And so I look at my attorneys and go, wow, and they seem to 
know all those answers. So I will tell you I think initially it 
started as a legal dump. I think----
    Mr. Gibbs. As a legal--it started as a legal dump, did you 
say?
    Ms. Wynn-Stelt. I believe it did, but I think at the point 
it contaminated groundwater that was where it became 
problematic. But I would defer to others who have more 
knowledge.
    Mr. Gibbs. The reason I just ask because I know the Clean 
Water Act, is you know, lots of regulatory processes, you know, 
and discharge permits and PDS permits and all that, and it just 
kind of raised a red flag when you said that.
    I was wondering what is really going on there because, 
obviously, any entity that is going out and dumping like that 
should be held accountable. Okay. So I just wanted----
    On testing--this is for any one of the witnesses, I guess--
because my information I have there is--could be over 5,000 
compounds of this--in this--these different classes of--this 
category you have, PFAS.
    So do communities, I assume, are communities that, you 
know, supply water? Do they--do they test for these chemicals 
or generally when they test for, you know, other things do they 
test for these?
    Mr. Bailey. Thank you for the question.
    Actually, what we have come in contact with, speaking with 
Environment Working Group is they don't want to be held at 
fault. So they are not--I don't want to speak out of turn.
    They are not really essentially testing the water because 
it is coming from them--treating the water at best. But they 
don't have the type of equipment to take this compound out.
    Mr. Gibbs. Okay. Well, I imagine it has got to be----
    Ms. Donovan. I can add.
    Mr. Gibbs. Oh, go ahead.
    Ms. Donovan. Yes. So it is interesting. In the three-county 
area that is downstream from Chemours and our area, Brunswick 
and New Hanover County are testing for these compounds 
voluntarily because, again, no one is required.
    Pender County is testing for it annually. But, see, we all 
get the same raw water from the same place and then each 
municipality finishes it using the treatment technology that is 
in their location.
    So, you know, why are--why am I in Brunswick County, able 
to know every two weeks the level of PFAS that is in my water 
and New Hanover County is able to know but Pender County is 
not?
    I think it is an economic issue, unfortunately, for them 
and that is unfortunate because we are all drinking the same 
level of water.
    Mr. Gibbs. I am just guessing the tests--because we are 
talking 5,000 compounds--is probably pretty sophisticated.
    Ms. Donovan. Well, unfortunately, they are not even testing 
for 5,000. The EPA's 537 method is the one that is--that 
everyone is using right now and I think that is only, at the 
most, 40, 50 compounds of the 5,000 out there.
    Mr. Gibbs. Now, the other information I have in front of 
me, so it talks about here the reality is that significant 
research has only really been done on three of the 5,000. Would 
you concur with that?
    Ms. Donovan. Exactly. And so when we are talking about 
being responsible, I guess my question to you is when you take 
your children or your grandchildren trick or treating do you 
let them have mystery candy?
    I don't think you do. And so why in the world are we 
allowing ourselves to drink mystery chemicals? And so if we are 
wanting to be responsible why are we not testing this first and 
then allowing the chemicals to be used in consumer products?
    So the fact that we have 5,000 and we are worried about 
what--about finding out which one are safe before we remove 
them, that seems a little backward way to look at it.
    Mr. Gibbs. Well, I didn't mean--I didn't mean that. I was 
just trying to figure out what is going on.
    Ms. Donovan. Oh, no. I know--I know you didn't mean it but 
I think it is a really important point, that maybe we need to 
flip our logic here and realize that we probably shouldn't have 
5,000 chemicals like these that are forever persistent 
bioaccumulative in existence unregulated and any product they 
can ever be put in that is not essential uses but we don't know 
how to dispose of them, and then decide if they are safe.
    That is backward. Let us decide they are safe first and 
then release them.
    Mr. Gibbs. I am almost out of time but I just--I see that 
there is a consent decree order with Chemours in your area. 
Spent $100 million in advanced technologies. Can you go and 
just elaborate on what is going on there?
    Ms. Donovan. Yes. So Chemours was required legally to put a 
filter on their air stacks and on their discharges and they are 
not doing a good job about it.
    They knew. I mean, Chemours is a spinoff of DuPont. And so 
they continue to operate the same way DuPont operated for 30 
years in our area and then they had to be told to stop.
    Mr. Gibbs. Okay. Thank you. I yield back.
    Mr. Rouda. Thank you, Congressman Gibbs.
    The chair now recognizes Congressman Kildee for five 
minutes.
    Mr. Kildee. First of all, thank you, Mr. Chairman, and 
members of the committee--subcommittee for holding this really 
important hearing, and for the witnesses, thank you for being 
here.
    Thanks for putting a human element to a story that often is 
argued in statistics and parts per trillion and acronyms that 
nobody understands and terminologies that are scientific, and 
when we listen to your stories, obviously, what we know we have 
is a very, very serious human tragedy that is playing itself 
out one person, one family, one community at a time and you are 
the most important voices we can hear at this point.
    You said that Congress does need to act and we have taken 
some steps. We, you know, recently formed a bipartisan task 
force to address this issue across committee jurisdictions, 
across party lines.
    It has been said this is not and shouldn't ever be a 
partisan issue. This is something where we have a very serious 
health problem that we better get serious about addressing or 
the stories that you have told are going to be told for 
generations to come.
    So thank you. You are the reason that we do this, and Ms. 
Wynn-Stelt, from my home state I appreciate you being here, and 
I wonder if each of you--Ms. Donovan, Bucky--it is good to see 
you again--if you could just--I mean, obviously, the personal 
tragedies that you have experienced are hard to imagine.
    But I wonder if you might just comment. Like, what--how has 
this changed Belmont and how has this changed the community you 
live in in Cape Fear and what difference has this made to the 
people in Parkersburg?
    How is life different than what you expected it would have 
been when you bought that house across the road from a 
Christmas tree farm?
    Ms. Wynn-Stelt. Thank you for the question.
    We have a lot more trucks in the neighborhood now, I will 
tell you that, and life revolves around remember to putting 
water jugs out and getting whole home filters tested and 
knowing things like PFAS and parts per trillion and things that 
I never would have guessed to know.
    That being said, and I am guessing everybody comes from a 
community that they see as extraordinarily resilient and I 
think Belmont and northern county is a very resilient 
community.
    Wolverine is an important part of that town and I think 
that makes industrial waste a little trickier to deal with 
because they have been a good support in the community except 
for this one little problem.
    So I think it has--we have come together as a community. I 
will say that. But it makes you look at things different.
    On the positive, I think we have become a community that 
has been very pleased that we can actually make change and that 
people thought that no one listened in Lansing, our state 
capital, or in Washington, and I think we are actually kind of 
surprised to see, good grief, you all showed up. That was 
great. Somebody listened.
    So I think that is kind of in a positive, if I can say 
that. So thank you.
    Mr. Kildee. Thank you.
    Ms. Donovan?
    Ms. Donovan. So, you know, my PTO now asks for bottled 
water donations before a party instead of baked goods. I worry 
about my kids getting dehydrated when I am not around them 
because they are afraid to drink tap water now from any source.
    I endure--well, it is not an endurance--it is--it is an 
endurance to know that we pray weekly for my friend, Tom 
Kennedy, who is on borrowed time--that I hear constantly my 
friends who are suffering from yet another illness.
    Those are things that in our 30's and 40's we shouldn't be 
doing because these are the best years of our lives. We should 
be going on fun trips and enjoying barbecues and not having to 
wonder who brought the right water for the barbecue. So there 
is that.
    Mr. Kildee. Thank you.
    Mr. Bailey, we see your story played out in the, I think, 
very important documentary that I hope everybody takes a look 
at, ``The Devil We Know.'' But could you tell us the rest of 
the story for Parkersburg?
    Mr. Bailey. Well, we did move to northern Virginia so I 
can't speak directly. But the conversations that I have had--my 
grandfather worked at Parkersburg and he would come home sick 
at times with the Teflon flu is what circulated around the 
plant.
    My mom worked in the same line, and when you worked for 
DuPont you were the cream of the crop, and that mentality still 
goes there.
    And Congressman Gibbs had asked about the water district 
and the initial litigation found--sought after by Joe Kiger was 
a letter that the water district sent, stating that DuPont 
deemed their water levels with the chemical in it to be 
acceptable.
    And Mr. Kiger asked why is DuPont deeming anything about my 
water supplies, and it is because of the stature. And I liken 
them and 3M and others to a bully who has taken your lunch 
money and is waiting for you to make a move to take it back.
    And it has been too long for us to do that. We can look at 
their internal documents. We can look at their own records and 
see the evidence that is tangible 50 years ago and more, and it 
is time for us to do that.
    One regret that I have that stopped me is my father passed 
away in 2008, and he will never get to see my kids because I 
was so scared of what they were having to endure and I waited 
and waited. But, you know, it is a shame what some of these 
families are going through and it can't go on any longer.
    Mr. Kildee. Thank you so much for being here. There are a 
lot of hearings taking place in this town today but I don't 
think there is any more important witnesses than the three 
people in front of us.
    Thank you very much for being here.
    Mr. Rouda. Thank you, Congressman Kildee.
    Congressman Keller, you are now recognized for five 
minutes.
    Oh, you didn't? Okay. My apologies.
    And we will go to Congresswoman Dingell from Michigan for 
five minutes.
    Mrs. Dingell. Thank you, Mr. Chairman.
    It is really great to see all three of you, and you can 
tell that Michigan deeply cares by the presence here, and we 
are seeing it in all of our communities.
    Unfortunately, the--as you are talking about Wolverine it 
went into the Huron River and came down into my district, and 
there is very much an environmental justice issue here because 
when you ask if people test for water, the community of Ann 
Arbor is, like, two of your communities that test for it weekly 
in screenings and gives--you know, educates it is becoming one 
of the municipalities across the country.
    And yet there are many other areas--like Dan said, Flint--
where the water did become polluted and we have got to talk 
about that.
    We are going to hear from our states and our state 
director. Michigan has been a state that, unfortunately, 
because of Flint people pay attention to these issues and we 
have got to find a way that we are going to raise that 
awareness and I think not everybody understands.
    I mean, we--the Republican Governor, Governor Snyder before 
Governor Whitmer, actually appointed a state task force to 
study the issue and it was comprised of doctors and engineers 
from across the country who found that actually--and most 
people don't realize that the 70 is only a guideline.
    It is not a mandatory standard. So we have no national 
standard. And Governor Snyder's task force found that that was 
probably too high a number.
    But I guess I would like to ask you, Ms. Donovan, because 
North Carolina has--is, I think, another state that is more 
aware than many other states, and we know that their defense--
we have had--it is also important to--we understand that 
firefighting foam and there are a lot of things that were doing 
good things that caused this and we don't know how to get rid 
of it. We don't know how to clean it up, which is another very 
real issue.
    But in Michigan, and we are going to hear more testimony 
about that, and you talked about it--we are looking for--what 
is the state of North Carolina doing?
    Ms. Donovan. So right now, I would just like to point out, 
too, we don't know how to get rid of it. We need to stop it at 
the tap then because if we don't know how to get rid of this 
stuff then we don't need any more research.
    We need to stop it, test the ones that are safe and then 
rerelease them out onto product. We need to put this onto maybe 
look at essential uses and really narrow that scope down.
    But in North Carolina our state level DEQ is now starting 
to try and look at the sources. And so it is a little of a back 
end approach where they are asking all of the wastewater 
treatment plants along the Cape Fear River to test for PFAS, 
find out how much is in it and then identify where their 
sources are and tell the sources.
    And then they are going to--the theory is that they will go 
and then tell the source how much they can and can't release 
into the environment.
    And then, again, we get back to the whole thing of why in 
the world are we allowing these products. I mean, AFFF we knew 
forever was toxic.
    Yet, we entered into a military spec and an agreement with 
the manufacturers to basically lock in that technology, and it 
stifled innovation and it stifled the ability for us to find 
toxic-free alternatives for firefighting foam. We need to stop 
going that.
    We need to stop allowing industry to poison us with 
products that we don't necessarily need and put that money into 
research for things that can be a little more eco-friendly, 
humane friendly, too.
    Mrs. Dingell. So maybe all three of you, very quickly 
because I am down to a minute, could talk about how designating 
PFAS as a hazardous chemical might expedite the cleanup process 
and hold polluters accountable.
    Why don't we start with Ms. Wynn-Stelt and go right down?
    Ms. Wynn-Stelt. I think the obvious thing is I need 
polluters to be held accountable so that my tax dollars don't 
go to clean it up because I need my tax dollars to go to 
Children's Protective Services and mental health funding and 
education and that. So that is why I need that.
    Ms. Donovan. Yes. If we don't designate PFAS, all of them, 
as a class as a hazardous substance you are guaranteeing that I 
am having to pay for the cleanup and we are looking at $100 
million in Brunswick County and $46 million in New Hanover 
County.
    So if we can get these designated then that at least gives 
the EPA the possibility to go back to the polluter and get the 
polluter to pay. Otherwise, you are also forcing us to spend 
long legal battles, which is what we are doing right now. These 
are long legal battles. We have no clean water.
    Mrs. Dingell. Mr. Bailey?
    Mr. Bailey. I think our first course of action would be to 
stop allowing companies to pollute. Right now, they can go dump 
any amount they want. I think electing this as a hazard 
chemical would stop that, hopefully, and move forward.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Mr. Rouda. Thank you, Congresswoman Dingell.
    And the chair now recognizes Congressman Sarbanes for five 
minutes of questioning.
    Mr. Sarbanes. Thank you, Mr. Chairman, for the opportunity 
to participate today. Thank you all for your extremely powerful 
testimony. I want to thank everyone who is in the audience 
today who made the trip to support and reinforce your 
testimony.
    Ms. Donovan, I want to thank you for your efforts, your 
testimony here, also the local advocacy that you have 
undertaken, which I know has made a difference. It is extremely 
commendable work.
    You stated in your written testimony that your community 
only learned that their drinking water was contaminated by PFAS 
chemicals in 2017, I believe.
    How long was that industrial site that was previously owned 
by DuPont and now owned by Chemours operating when you learned 
that your water was contaminated?
    Ms. Donovan. They admitted in public disclosure to elected 
officials that they had been operating since or they had been 
releasing GenX into our water for a little over 30 years.
    They had started releasing GenX in 1980. The facility, I 
think, was founded in 1968, I believe. It is in my testimony.
    Mr. Sarbanes. And the community didn't learn that until 
2017?
    Ms. Donovan. Correct.
    Mr. Sarbanes. After surrounding communities learned of the 
contamination crisis, what was the response of Chemours? Did 
representatives from the company address the community with 
public meetings? Did they meet with affected residents?
    Ms. Donovan. No. Fourteen days went by before they released 
any statement, which was them coming down to a closed door 
meeting where they only allowed one reporter in the room, and 
then after that we never heard from them again.
    They refused to answer reporters' questions. They have, to 
this day, never come to Wilmington, Brunswick--Wilmington area 
to hold any public meetings.
    They gave one public meeting near Fayetteville after 
groundwater contamination. I feel like that happened maybe six 
months to a year after public knowledge or public disclosure of 
the contamination.
    Mr. Sarbanes. So, obviously, a thoroughly inadequate and, 
arguably, very cowardly response on the part of the company.
    Something we have heard from the defenders of Chemours and 
DuPont is that while PFOA and PFAS might be harmful, that their 
alternative compounds with shorter carbon chains such as GenX, 
which you talked about today, that are safe replacements for 
PFOA and PFAS.
    Do you believe that GenX is a safe alternative? I can 
anticipate your answer but I will give you a chance to 
emphasize it.
    Ms. Donovan. So when you file a TSCA--when you do a TSCA 
filing it is self-reported and that means that you have a 
suspicion that the chemical is not going to be safe for 
exposure, and they filed 16 for GenX and all of them came back 
as awful.
    So, no, they knew, and we drank GenX routinely and 
regularly at average quantity of 631 parts per trillion every 
day.
    So I know there had been some discussion and debate about 
well, GenX is not in the blood; therefore it can't be toxic.
    We need to start having a real heartfelt conversation about 
the word toxic because just because it is not in my blood 
doesn't necessarily mean it wasn't toxic while it was passing 
through my body, especially when I was exposed to it at a 
regularly basis every day, and I think sometimes at high levels 
of 4,500 parts per trillion. And Michigan, for some reason, 
also never tested for GenX and so that always confused me.
    Mr. Sarbanes. Thank you.
    I know that you mention in your written testimony that your 
husband developed medical conditions you believe are 
attributable to PFAS, and I wondered if you wouldn't mind 
describing that a little bit more for the committee.
    Ms. Donovan. Yes. So my husband is an identical twin, and 
when he started--he started just having problems with his 
vision, and so he was constantly getting readers and I was, 
like, why do we have all these readers in the house, and he 
was, like, I just can't see.
    So we went to an eye doctor, and the eye doctor said there 
is something really wrong--let us do an MRI. We did the MRI and 
he had--he had a brain tumor the size of a golf ball stuck in 
the back behind his nose, compressing his optic nerves, his 
olfactory, his pituitary, and his central nervous system, and 
the doctor said, we need to get this out immediately because 
any longer it is in there you are going to lose your vision and 
vision is nonrecoverable.
    So they removed the tumor. We were grateful that it was a 
benign tumor. And so now he has to get routine MRIs. He has to 
get hormonal looks constantly surveilled just to make sure he 
is okay.
    And his identical twin brother lived in another part of the 
state not in a contaminated area and had an MRI as well and 
there was nothing.
    Mr. Sarbanes. So it is unusual for us to get something that 
looks so much like a naturally occurring experiment, as you 
described here when you are talking about two twins that will 
share 99.9 percent of their DNA.
    Your husband developed the tumor after living in a 
contaminated community. His twin, who did not live in that kind 
of community, never developed a similar condition. That says 
something powerful.
    Thank you very much for your testimony today. We are going 
to continue to urge EPA to regulate all of these chemicals 
including the emerging PFAS chemicals.
    And with that, I yield back my time. Thank you, Mr. 
Chairman.
    Mr. Rouda. Thank you, Congressman Sarbanes.
    The chair now recognizes myself for five minutes, and it is 
clear from the testimony here from all of you that 
polyfluoroalkyls literally is killing us and the related 
chemicals, and when--I want to focus on how that has directly 
impacted you, Mr. Bailey, and your mom because as Congressman 
Sarbanes pointed out, it has been put forth in a documentary, 
which it would behoove all of us to see it.
    But I want to point out that DuPont, since 1951, has been 
manufacturing PFOA at their manufacturing facility in 
Parkersburg, West Virginia, and your mother, I believe to my 
knowledge, was in charge of getting rid of the chemicals. Is 
that correct?
    Mr. Bailey. That is correct. She was containing the 
chemicals to a container of some sort as well as she could. 
When the chemical would come out of the container, she was told 
to squeegee it and the contents would go outside.
    Mr. Rouda. So she is literally breathing the fumes while 
she is pregnant with you?
    Mr. Bailey. Yes, sir.
    Mr. Rouda. And, to your knowledge, was there any effort 
made by DuPont to inform or warn employees about the potential 
dangers of exposure to these chemicals?
    Mr. Bailey. No, sir.
    Mr. Rouda. You had mentioned that you had undergone dozens 
of reconstructive surgeries during your childhood and teenage 
years to help address the physical challenges you were born 
with.
    Beyond just providing your mom with insurance through the 
course of her employment, did DuPont help your family pay for 
any of the surgeries or medical expenses?
    Mr. Bailey. No, sir.
    Mr. Rouda. How difficult was it for your family to make 
those payments?
    Mr. Bailey. Very difficult. Luckily, we found a great 
physician and great plastic surgeon who was able to do most of 
my work pro bono.
    Mr. Rouda. And you are fortunate in that sense when so many 
families and so many victims of these chemicals don't have 
access to that type of humanity.
    In the documentary, ``The Devil We Know,'' you and your 
wife talk about some of the fears you had when making the 
decision to start your own family. You were moved to tears 
earlier. One of your biggest regrets is your father not being 
able to see your children.
    Do you know at what level these toxic chemicals are 
currently in your body?
    Mr. Bailey. I have not tested current--within the past five 
to 10 years.
    Mr. Rouda. And your children?
    Mr. Bailey. I have not tested them yet, either.
    Mr. Rouda. The subcommittee extended an invitation to 
DuPont to participate in today's hearing. Unfortunately, they 
declined.
    Do you feel as though DuPont has been held accountable for 
their role in contaminating communities like the one you grew 
up in?
    Mr. Bailey. Absolutely not.
    Mr. Rouda. And if they were here today what would you most 
want to tell them?
    Mr. Bailey. Tell us the truth and be human.
    Mr. Rouda. Ms. Donovan, same question. What would you like 
to tell DuPont and some of the other polluters if they were 
here today? What would you want to ask them? What would you 
want to tell them?
    Ms. Donovan. There is a reckoning and that there are human 
beings making these decisions, and if I poison my neighbor's 
well I go to jail.
    I would also like to point out, too, something very 
interesting. I don't know if you followed but DuPont and 
Chemours are now in a legal battle, and if you are familiar, 
DuPont spun off Chemours and then--and gave Chemours a 
tremendous amount of debt and all the liability, and now 
Chemours is coming back and saying, wait a second--we can't 
handle that.
    So, in my mind, it really sounds like DuPont is saying, I 
am going to make you fail, I am going to make you bankrupt, and 
I am going to have you take all of responsibility with you so 
that we are all left--all of us are left paying for their 
crimes.
    Mr. Rouda. Ms. Wynn-Stelt, same question.
    Ms. Wynn-Stelt. I just want people to step up and be 
responsible and make this right. That is what we teach our kids 
to do. If your kids break something, smash something, spill 
something, we expect them to clean it up and make it right.
    And I need them to stop avoiding that and just do the right 
thing. That is all they got to do.
    Mr. Rouda. Thank you.
    Thanks to all of you for your testimony. I will share with 
you I have submitted legislation that would provide $2 billion 
in fees from these organizations, from these companies, from 
these corporations to address these chemicals that they are 
responsible for.
    And I am hopeful to continue to gain support from all 
Members of Congress and the Senate as well so we can move this 
legislation forward because it is so important that we address 
this issue for all of our communities across the country, 
including those communities who have yet to even test to fully 
understand the impact these chemicals are having on their 
drinking water and the health of their citizens.
    With that, we are ending the first panel of testimony. We 
are going to hop into the second panel. So you guys are free to 
go, which means I am sure you are going to take a seat and 
continue to join us.
    As the witnesses are switching out, please be aware that 
you may receive additional written questions for the hearing 
record and we appreciate your prompt and thorough response.
    [Pause.]
    Mr. Rouda. We are going to go ahead and get started with 
the second panel. I would like to thank the first panel for 
their testimony again and welcome our final witnesses and thank 
them for your patience.
    With us today is Dr. Jamie C. DeWitt, associate professor, 
Department of Pharmacology and Toxicology, Brody School of 
Medicine, East Carolina University; Catherine McCabe, 
commissioner, New Jersey Department of Environmental 
Protection; Robert R. Scott, commissioner, New Hampshire 
Department of Environmental Services; Steve Sliver--got that 
right--executive director, Michigan PFAS Action Response Team, 
Michigan Department of Environment, Great Lakes, and Energy; 
Glenn Evers or Evers--Evers--thank you, Glenn--president, IS2 
Consulting, former research scientist at DuPont; and Jane 
Luxton, co-chair, environmental administrative law practice 
Lewis Brisbois Bisgaard & Smith.
    Please stand and raise your right hands and I will begin 
swearing you in.
    [Witnesses are sworn.]
    Mr. Rouda. Let the record reflect that the citizens--
witnesses answered in the affirmative and please be seated as 
you have.
    Please note microphones are very sensitive. So when you are 
speaking first turn it on, lean in.
    And with that, your--let me note your written statement 
will be made a part of the record, and Dr. DeWitt, you are now 
recognized to give an oral presentation of your testimony for 
five minutes.
    Thank you.

 STATEMENT OF JAMIE DEWITT, ASSOCIATE PROFESSOR, DEPARTMENT OF 
  PHARMACOLOGY AND TOXICOLOGY, BRODY SCHOOL OF MEDICINE, EAST 
                      CAROLINA UNIVERSITY

    Ms. DeWitt. Thank you, Chairman, and thank you, members of 
the subcommittee for having me here today.
    Yes, I am an associate professor of pharmacology and 
toxicology at the Brody School of Medicine of East Carolina 
University.
    But I am also a citizen of eastern North Carolina. I also 
grew up in the state of Michigan. I have family in the state of 
Michigan. So I am a concerned citizen as well, and I am more 
than just a dispassionate scientist who stares into test tubes.
    I now bear an enormous responsibility to the people in my 
state, my home state, and the country who are consuming water 
filled with PFAS.
    I have an overwhelming burden now and I don't want to look 
into faces anymore and say, ``I don't know.'' I want to be able 
to help them with my science and I want to be able to help you 
to understand the science so that we can make decisions 
together about how to protect citizens in our country from 
these chemicals that are found in our water, in our food, in 
our air, and now in our bodies.
    Yes, there are over 5,000 different PFAS chemicals. But it 
is important to remember that they are all made to have similar 
functions.
    They are made to be stable under chemical conditions. They 
are made to be stable under conditions of high heat. They are 
made because of that carbon fluorine bond and the strength of 
that bond.
    So they have these same functional characteristics. So 
there are one group or one class of chemicals that do the same 
things. They are interrelated. They are transformation products 
of one another.
    And I think one of the issues that we have with these 
chemicals is that they are persistent. We call them forever 
chemicals and when these persistent chemicals are released into 
the environment and contaminate our food and water resources, 
the problem of cleanup is extremely challenging. We have heard 
some comments about cleanup. Some of the issues we have right 
now with cleanup is that there is no readily available or 
affordable way to clean these chemicals out of our water at the 
large scale.
    Right now, we filter, we capture, and then we move these to 
another part of the country or we move them to an incinerator, 
and we are not even really sure if incineration will completely 
break down these chemicals into nontoxic components.
    It is really imperative that we find low cost ways to 
remove these contaminants from the environment and to come up 
with ways for determining which ones should be used for 
essential purposes for the good of society.
    I would like to paraphrase a scientist--a senior scientist 
from the nonprofit organization International Chemical 
Secretariat.
    She said that--and her name is Anna Lindquist--she said the 
real dilemma with persistent chemicals is that if we fail to 
appreciate their toxicity today and find out later that they 
are indeed toxic, as has happened numerous times in the past, 
it will be too late.
    Continual exposure to toxic persistent chemicals will 
eventually increase the risk of adverse health effects.
    I first started studying these chemicals in 2005, and when 
you start to work with a new chemical your job as a scientist 
is to go through the literature, and I started with the 
publicly available scientific literature, and I found that some 
of the earlier studies in the published literature occurred in 
about the early 2000's, and these were studies on the immune 
toxicity.
    I look specifically at how these chemicals affect the 
immune system. There were some scientists that determined that 
mice were very susceptible to the immune effects of these 
particular compounds.
    Well, as I started to learn more about PFAS, I started to 
go into the past, and when you go into the past in the 
literature sometimes you go outside of the published 
literature, and I found out about some studies that occurred in 
the 1950's, 1960's, and 1970's.
    With respect to the immune system there were some studies 
done in 1978 that demonstrated these chemicals were impacting 
the immune systems of mice and monkeys.
    As far as I know, these publications or these studies have 
not made it into the published literature. Dr. Philippe 
Grandjean, a professor at Harvard and the University of 
Southern Denmark, said, ``If I would have known about these 
studies earlier, I would have started asking questions about 
the human immune system,'' much earlier than he did.
    We now know that some of this information is available as 
chemical companies submit information under premanufacture 
notices. So there are some people who know about the toxicity 
of these compounds--some of the newer ones that we are facing.
    But as a scientist and a citizen, it is challenging for me 
to get that information to make decisions about where I should 
go next in my research.
    We now know that there are numerous health effects 
associated with these chemicals. We have listed them out. You 
have mentioned them several times today.
    One of my colleagues, Gretta Goldenman, who works for a 
consulting company or started a consulting company in Brussels, 
recently wrote a report for the Nordic Council of Ministers, 
and she and her colleagues estimated that it would cost 
billions of dollars a year in U.S. dollars.
    We are approaching $100 billion a year to pay for the 
health care costs associated with PFAS chemicals.
    So we need to do something today, not tomorrow when those 
health care costs are building up.
    Thank you.
    Mr. Rouda. Thank you.
    Mr. Evers for five minutes.

  STATEMENT OF GLENN EVERS, PRESIDENT, IS2 CONSULTING, FORMER 
                  RESEARCH SCIENTIST AT DUPONT

    Mr. Evers. Hello. My name is Glenn Evers. I would like to 
briefly introduce myself. I am going to introduce you to the 
largest transportable sources of PFAs.
    I am going to replace some of the bamboozling nomenclature 
that PFAs like to use and I am going to give you three simple 
criteria to help you stop PFA contamination.
    I am a B.S. chemical engineer, 22 years with DuPont. I left 
them in 2002. I am an R&D scientist, a very devout R&D 
scientist. I mean, I would have had the tattoo DuPont oval on 
my rear. Very, very strongly DuPont.
    From 2004 to 2019, after I had left DuPont, I worked as a 
consultant working for the largest pigment, paint, and resin 
manufacturers in the world. So working with world-class 
chemical companies.
    Out of my eight issued patents, I hold two patents that 
incorporate DuPont fluorochemicals. I have used it. I know what 
it is used for. I know what the chemicals are and I know the 
toxicity of what they are involved with.
    Zonal RP was used for greaseproof of popcorn bags and paper 
plates, dog food plates, cookie bags, paper, baking. It came in 
contact with you every way and in ways you don't even know, and 
it was initially qualified by FDA for use on paper.
    And when they did the first studies it was a reject. FDA 
said, no, this is toxic stuff. And they came back and said, 
well, but if you could control the concentration at low enough 
levels then it wouldn't affect anybody and, oh, by the way, 
DuPont argued, that it would go in your blood and it would 
leave very quickly.
    So they actually worked through a study. They had a 
compromise with the FDA and the FDA said, okay, if you can feed 
the dogs 1,000 times what they would be normally eating and do 
this over a three-month period and they all look good, then we 
will say it is okay. In place of that, you are going to have to 
do a two-year study.
    Well, they ran the three-month study, what they found were 
dogs with bloated livers. They found dogs with testicular 
lesions. They found lungs with lesions as well.
    And the argument was, well, but it goes through the body. 
Don't worry about it. And I was involved in a whistle blowing 
activity because we found that the original premise that the 
chemicals stay on the paper didn't work and, in fact, their 
processes had changed and they were being extracted at three 
times higher concentrations that were allowed by FDA back in 
the 1960's.
    Your children and your mother, everybody involved had an 
opportunity to eat PFAS and a particular paper fluorochemical.
    So today it is still here. It is in windshield cleaners, 
waxes, oil additives. By gosh, you know, you are walking--you 
are in the traffic and you see that truck in front of you with 
that big black puff of smoke as it goes by? He went to Jiffy 
Lube and so he could get better lubrication and extend his 
engine life.
    He got one with Teflon particles, not PFAS, and it is 
burning. Teflon is not to be burned. It is in the MSDS. It is 
insane.
    It is on carpet fabric treatment still today, in clothing, 
in food packaging. They did a trick. What they did was they 
realized that C8 was no longer fashionable, no good on paper.
    But it is so profitable to put on your paper that what they 
decided they would do is they would take a C8 and break it up, 
and what they did--these are two--this is C2 right here.
    This is another C2 right here. And if I put enough of these 
C2s together you notice that they all have fluorine, right? 
That is the eye you got to keep on--you got to keep your eye on 
the fluorine, not the number of carbons, because the Italians 
figured out that the way to solve the problem of still selling 
the fluorochemical is to start inserting oxygens between the 
C2s.
    So what they did to make the same molecule was they started 
inserting oxygens in between there, and that was not a C8 
product. That was a C2 product.
    And so when you hear about GenX, you are going to say oh, 
well, that is a smaller molecular weight version. But in 
reality it is still keep an eye on the fluorines. That is the 
key. It is not whether it is PFAS or PFAX or whatever or PFOA.
    I can hide behind an ultra pure form of a surfactant, study 
it to death, and then say it doesn't have toxic effects. That 
is not the case here. You have to keep an eye on that.
    I am really jumping to the end of my presentation here. The 
clear criteria for whether or not you have something that is 
hazardous, this is manmade. It doesn't biodegrade.
    There is not a single bacteria, mold or virus, anything 
that will ever break this molecule down. It is only found 
because man made it, and it is in your blood.
    So if it is surface active and in your blood and it has got 
fluorine, it is still bad.
    Mr. Rouda. Thank you.
    Ms. McCabe, five minutes.

    STATEMENT OF CATHERINE MCCABE, COMMISSIONER, NEW JERSEY 
             DEPARTMENT OF ENVIRONMENTAL PROTECTION

    Ms. McCabe. Thank you, Chair Rouda, Ranking Member Comer, 
and members of the committee. Can you hear me now?
    Okay. As the most densely populated state in the country 
and one of the most industrialized, New Jersey has had a 
particularly high occurrence of PFAS contamination in our 
drinking water, and that is why we have taken the threat of 
PFAS very seriously and from an early time we have been a 
leader among the states in addressing this problem.
    As you have heard from all the other witnesses and have 
said yourselves, the scientific evidence shows pretty clearly 
now that exposure to these chemicals presents serious risks to 
public health and we do take that seriously.
    The New Jersey DEP first investigated the occurrence of 
PFAS in public drinking water systems in 2006, again in 2009, 
near industrial facilities that were processing or using PFAS.
    We focus particularly on the two chemicals known as PFOA 
and PFAS, and found a very high percentage--65 percent--of the 
water systems tested positive.
    We also found contamination in hundreds of private wells 
that were located around these facilities. In 2013 to 2015, 
EPA's UCMR National Survey of Unregulated Contaminants in 
Public Water Systems revealed PFAS contamination in almost 11 
percent of New Jersey's large water systems, the highest rate 
in the country.
    We have also found PFAS contamination in many of our 
surface waters. In 2018, an assessment of 11 waterways in New 
Jersey found PFAS compounds in all the surface water samples 
and in most of the sediment samples.
    We also found PFAS in the fish, prompting fish consumption 
advisories. So to address the level of public health risk from 
PFAS contamination in the drinking water and to determine what 
level, if any, of PFAS is safe for human consumption, we called 
upon the expertise of our highly regarded Drinking Water 
Quality Institute.
    The institute's members are independent scientists and 
drinking water experts as well as toxicologists and other 
scientists from the New Jersey DEP and Department of Health.
    We also consulted with the U.S. Environmental Protection 
Agency, which has provided some health guidelines but no 
national regulatory standards for PFOA and PFAS in drinking 
water.
    New Jersey and other states have repeatedly urged the EPA 
to move forward with setting nationwide regulatory limits for 
PFAS under the Federal Safe Drinking Water Act.
    But the EPA has been very slow to act. New Jersey, 
therefore, had no choice but to move ahead to set its own 
guidelines.
    In 2018, New Jersey became the first state in the Nation to 
establish a regulatory limit for a PFAS chemical in drinking 
water, setting a state Safe Drinking Water Act maximum 
contaminant level of 13 parts per trillion for PFNA and we also 
proposed limits of 13 and 14 parts per trillion for PFOA and 
PFAS. We expect to make decisions on those proposed standards 
in the next few months.
    New Jersey's extensive research on the latest available 
science shows that these low limits are necessary to protect 
public health including the health of vulnerable members of the 
population such as infants, who can be disproportionately 
exposed to these contaminants through drinking water.
    We disagree that EPA's current health guideline of 70 parts 
per trillion is sufficiently protective. What worries us 
perhaps even more than what we now know about PFNA, PFOA, and 
PFAS is what we do not yet know.
    There are thousands of PFAS chemicals in commercial use, as 
everyone has pointed out. Many or most of the sources of PFAS 
contamination have not yet been detected, much less 
investigated and addressed.
    States lack the most basic information regarding the 
volumes and locations of historic production and distribution 
of these chemicals and we know almost nothing about the 
replacement chemicals that are currently in use.
    As with their predecessor, these have been billed as 
nontoxic but experience is teaching us otherwise. We need 
corporate manufacturers to share information about these 
chemicals and their toxicity and we need the Federal Government 
to help us do that.
    Even more, we need the Federal Government require chemical 
companies to use more care and to disclose the risks before 
putting these chemicals into commerce.
    The current approach of market first and let us suffer 
later is subjecting the environment and the public to the 
detrimental effects of these chemicals without a full 
understanding of the nature and the degree of risk that they 
present.
    This leaves states in the position of perpetually 
scrambling to address the injuries caused by these chemicals 
rather than preventing them in the first place.
    In the meantime, New Jersey had moved ahead to take legal 
action to require DuPont, Chemours, 3M, and Solvay Chemicals to 
investigate and pay for treatment and cleanup of the PFAS 
compounds in our drinking water and environment.
    I issued a Statewide directive to these companies to do 
this in March of this year, and the New Jersey attorney general 
has filed lawsuits against DuPont, Chemours, and 3M.
    I thank you, Chair Rouda, Ranking Member Comer, and members 
of the committee for your attention to this important issue.
    Mr. Rouda. Thank you, Commissioner McCabe.
    And the chair now recognizes Mr. Scott for five minutes.

    STATEMENT OF ROBERT SCOTT, COMMISSIONER, NEW HAMPSHIRE 
              DEPARTMENT OF ENVIRONMENTAL SERVICES

    Mr. Scott. Thank you, Mr. Chairman, and members of the 
subcommittee.
    Again, my name is Bob Scott. I am commissioner of the New 
Hampshire Department of Environmental Services. Our mission in 
the state of New Hampshire is to protect public health and the 
environment, and in this capacity drinking water standards are 
a concern.
    New Hampshire, unfortunately has been very heavily engaged 
in the PFAS issue, starting with contamination at one of our 
former DOD sites at Pease Air Force Base. And I will pause 
there, if I could.
    When I deal around the country I hear a lot about DOD 
sites, airfields, AFFF, and that is very important. Some 
circles, when I talk like that, I think that is the only place 
people think this contamination exists.
    We are finding it also and have found it at former 
Superfund sites, at landfills, at fire training areas. You 
know, the municipal fire departments have to train with this 
type of foam.
    We found it at biosolid disposal sites. We have even found 
it at a school where we suspect that the cleaning solvents used 
in the floor--rightly so, the schools clean a lot--their 
floors.
    The janitor dumps it down the drain and it goes to the 
septic tank and contaminates the local well. So this--it is 
important for me for you all to understand that it is not just 
a DOD issue. It is not just a big state--an industrial state 
issue. This is an everywhere issue.
    We also have the distinction, I think--we are one of the 
states where we have had air emissions--deposition from air 
emissions from, in this case, it was Saint-Gobain Performance 
Plastics.
    We were able to demonstrate drinking water well impacts. 
New Hampshire has, roughly, 49 percent--46, 49 percent of our--
all our drinking water in our state is private wells. They had 
impacts from that one stack of over 64 square miles of 
deposition; not all over standards, but still we had impacts. 
That is unprecedented and it was really difficult for the state 
to have the resources to deal with.
    I will say the--Saint-Gobain, I would call them a good 
corporate citizen. They have connected--by the end of this fall 
they will have connected over 700 properties to public water 
because of the contamination issues.
    So, again, as I mentioned, it is just--it is not a unique 
thing just to DOD sites. I will cite, and an example is the 
Saint-Gobain issue where we do have an excellent relationship 
with EPA Region One, with EPA's Office of Research and 
Development in particular in dealing with the air deposition. 
They are very great partners and we would like to make sure 
that continues.
    Moving very quickly here, my counterpart to my right 
mentioned standards. As of last week, we now have the 
distinction in New Hampshire of having the most stringent water 
quality standards for PFAS in the country today.
    That was a result of our--we have a very engaged public in 
New Hampshire, rightly so. We have a very engaged citizen 
legislature. Our executive branch, our Governor, were tasked by 
our legislature.
    Initially, they wanted to set drinking water standards, 
MCLs, enforceable standards legislatively. As an agency we said 
please let us follow the science. Give us that purview and we 
will do it. We followed the science and that is where we came 
out.
    Why is that important? There is probably--I think there is 
seven other states currently on a path to do exactly the same 
thing for enforceable standards, and then there is a handful of 
states that will be looking at health risk advisory action 
levels or other nonenforceable standards.
    So what this means is we will have a patchwork throughout 
the country of different standards inevitably which makes it 
very difficult for the citizens to understand what that means 
but also for industry.
    I was fortunate--I came from a meeting in Indiana. On my 
way I came here. I was meeting with some of the national 
drinking water companies. They have been advocating for 
national standards also.
    So one of my key things here is I think we would all be 
better off if this is done at the national level. But failing 
that, we are going to see states like New Hampshire be forced 
to move ahead to protect their citizens.
    So summarizing, I see I have a few minutes left. Again, 
this is an every state issue. We do need this to come out of 
commerce so we need industry, the Federal Government, and 
internationally we need to see these things come out of 
commerce in a reasonable way.
    There is firefighting foam and other things that are 
providing a good public benefit but we need to find substitutes 
for that. We need national standards. We need the science. We 
based our standards on science but we need the Federal 
Government to help on that.
    And at the end of the day, we are going to need financial 
assistance to be able to remediate this from the environment.
    Imagine, if you will, we have landfills where the leachate 
is contaminated, which goes to wastewater treatment facilities, 
which don't want to take that anymore, which have biosolids 
that are questionable now.
    We are going to need assistance in not spending millions of 
dollars to move this contamination around but to destroy it.
    Thank you.
    Mr. Rouda. Thank you, Commissioner Scott.
    Mr. Sliver, you are now recognized for five minutes for 
your opening statement.

 STATEMENT OF STEVE SLIVER, EXECUTIVE DIRECTOR, MICHIGAN PFAS 
ACTION RESPONSE TEAM, MICHIGAN DEPARTMENT OF ENVIRONMENT, GREAT 
                       LAKES, AND ENERGY

    Mr. Sliver. Good afternoon, Chairman Rouda, Ranking Member 
Comer, and members of the subcommittee. Thank you for this 
opportunity to talk about what we are doing about PFAS 
contamination in Michigan.
    My name is Steve Sliver and I am the executive director of 
Michigan's PFAS Action Response Team, or MPART. MPART is 
coordinating a rapid and comprehensive evaluation of PFAS in 
drinking water, groundwater, surface water, waste water, soil, 
biosolids, industrial byproducts, fish, and even deer.
    We have 62 sites where groundwater contamination exceeds 
our state cleanup criteria and we continue to investigate 
hundreds more, and as you have heard, we have this many PFAS 
sites because we are looking, not because we have more 
contamination than anyone else.
    These sites include military installations, airports, 
landfills, and industrial facilities. Our priority is 
protecting public health. So when we discover a site we 
immediately evaluate whether drinking water supplies in the 
area have been impacted.
    MPART and responsible parties have been testing thousands 
of private wells. More than a third of those tested last year 
had some amount of PFAS contamination and 4 percent exceeded 
that 70 part per trillion lifetime health advisory threshold.
    Alternate drinking water is offered whenever there is a 
detection during these ongoing investigations and remediations 
of the sites.
    We are studying the occurrence of PFAS in our surface 
waters by adding PFAS to the ambient testing of water and fish. 
This enables us to track down discharges of high concentrations 
of PFAS so they can be reduced and to identify threats to 
public drinking water supplies that have surface water intakes.
    Much of the focus is on PFOS in surface water because it 
accumulates in the tissue of fish we consume. Our surface water 
quality standard for PFOS is 11 parts per trillion in surface 
water that is also a source of drinking water.
    We have identified industrial discharges of PFOS in the 
thousands of parts per trillion range and we are realizing 
significant contaminant reductions in the impacted waterways by 
working through our local wastewater treatment plants to get 
the industrial users to treat the problem at its source.
    MPART is also systematically serving our drinking water 
supplies. This data helps us to identify and protect residents 
who are exposed while helping us understand the occurrence of 
PFAS throughout Michigan.
    We know from statewide testing of all community water 
supplies last year that 97 percent don't have a PFAS 
contamination issue at this time. We are currently monitoring 
and investigating further 62 of those supplies where we 
discovered elevated concentrations of PFAS and we are expanding 
our investigations to other supplies.
    Michigan is engaged in all of these efforts with very 
little support from the Federal Government. U.S. EPA has not 
established national enforceable standards despite evidence 
that PFAS are in our drinking water and that some have been 
associated with adverse health effects.
    At the direction of Governor Whitmer, Michigan, like 
several other states, is proceeding to develop our own 
standards because U.S. EPA has not acted in a timely manner.
    Our MPART science advisory work group just recently 
provided recommended health-based levels for seven PFAS in 
drinking water as a foundation for our rulemaking process for 
drinking water standards.
    The health-based values are lower than EPA's recommended 70 
parts per trillion for PFOA and PFOS, cover more compounds, and 
reflect the trend that we are seeing among other States that 
are doing the same thing.
    There is much more to be done and the promulgation of 
drinking water standards will add to that, and we need more 
resources. State alone has already allocated over $50 million 
over the past two years to investigate and remediate PFAS 
contamination and to identify responsible parties.
    As Michigan's new drinking water standards are promulgated 
and take effect, the additional burden of dealing with this 
legacy contamination will fall squarely on the shoulders of the 
municipalities responsible for treating our drinking water and 
ensuring it is safe for their customers.
    We will continue to hold responsible parties accountable 
for contamination they cause and we will continue to manage the 
sites where no responsible party is known.
    But we need to sample more water supplies, more chrome 
platers, more airports, more fire stations. That costs money 
and it can cost the state millions of dollars to remediate just 
one of these orphan sites.
    Michigan urges the Federal Government to move more swiftly 
in addressing PFAS issues. We also urge Congress to ensure 
proactive states like Michigan are provided financial 
assistance to ensure that our citizens are protected from these 
chemicals.
    I commend the subcommittee for examining the levels of PFAS 
contamination across the country and industry efforts to clean 
them up. We have got considerable information available on the 
Web and look forward to assisting in any way we can, and I look 
forward to your questions.
    Thank you.
    Mr. Rouda. Thank you, Mr. Sliver.
    Ms. Luxton, five minutes for your opening statement. Thank 
you.

 STATEMENT OF JANE LUXTON, PARTNER AND CO-CHAIR, ENVIRONMENTAL 
  ADMINISTRATIVE LAW PRACTICE, LEWIS BRISBOIS BISGAARD & SMITH

    Ms. Luxton. Good afternoon, and thank you, Chairman Rouda, 
Ranking Member Comer, and members of the subcommittee and 
committee members who have also come to this hearing.
    I am a partner in the Washington D.C. Law Office of Lewis 
Brisbois and co-chair its environmental and administrative law 
practice.
    I am testifying here on my own behalf as an environmental 
and administrative law practitioner who has a strong interest 
in science policy issues, which has led me to follow 
developments relating to PFAS chemicals. I am not representing 
any client on PFAS issues.
    Today, I would like to highlight some of the issues 
surrounding the effective regulation and management of PFAS 
chemicals.
    First, while a significant amount of scientific research 
has been done on PFAS chemicals, much of this research remains 
incomplete and much more needs to be done, as we have heard 
from virtually everyone, to adequately understand the potential 
health effects of PFAS chemicals and risks posed by the many 
compounds that have not yet been studied.
    The Agency for Toxic Substances Disease Registry reported 
in its June 2018 toxicological profile that, quote, ``The 
mechanisms of toxicity of perfluoroalkyls have not been fully 
elucidated and that comparison of the toxicity of 
perfluoroalkyls across species is problematic.
    Because of the differences in elimination of half lives, 
lack of mechanistic data, species differences in the mechanism 
of toxicity for some health end points, and differences in 
measurement exposure levels between epidemiology and 
experimental studies,'' closed quote.
    Dr. Linda Birnbaum, director of the National Institute of 
Environmental Health Sciences and National Toxicology Program, 
testified before a Senate committee last fall that, quote, ``We 
do not have strong data on which to base conclusions for the 
great majority of PFAS and we have only limited findings that 
support particular adverse health effects,'' closed quote.
    More research is needed to determine the extent of causal 
links between PFOA, PFOS, and the many other PFAS compounds and 
specific health effects in humans, as well as fate and 
degradation in the environment and toxicity uptake and 
retention in humans, plants, and animals.
    Additional work is sorely needed on developing effective 
analytical methods and disposal techniques. A great deal of 
both academic and governmental research is underway and efforts 
are increasing to coordinate this work, to expedite the 
process, and minimize costs.
    But rigorous data-driven research is critical to ensuring 
the resources are properly focused on addressing the highest 
priority public health risks.
    Second, regulatory efforts are proceeding under the Safe 
Drinking Water Act and other Federal statutes for increased 
regulation and enforcement of PFAS chemicals.
    EPA's February 2019 action plan and its recently issued 
regulatory agenda commit the agency to issuing by the end of 
this year regulatory determinations for PFOA and PFOS that are 
the legally required key step in the process for setting 
maximum contaminant level standards.
    EPA is further committed to making final determinations by 
the end of 2020 with additional steps to follow as prescribed 
by law. EPA is also committed to proposing hazardous substance 
listings for PFOA and PFOS for the cleanup process by October 
of this year and to developing new test methods to support 
monitoring of more PFAS compounds and at lower levels than was 
previously feasible.
    Third, this Congress has passed legislation that, if 
enacted, would direct additional Federal regulatory initiatives 
as well as facilitate research and, importantly, provide grants 
for drinking water systems.
    In conclusion, states, Federal agencies, and the scientific 
community are working vigorously to address PFAS issues against 
a backdrop of limited scientific knowledge, uncertainty, 
complexity, economic realities, and competing public health 
priorities.
    While pressure is understandably strong for expedited 
action, truly effective regulation and management of PFAS 
chemicals must be based on the best scientific evidence 
available using legally defensible processes that will stand up 
under judicial review.
    Thank you, and I look forward to your questions.
    Mr. Rouda. Thank you, Ms. Luxton, for your testimony as 
well as all the other witnesses.
    That buzzing you heard is our call to vote, and as such, I 
am going to ask that the members here please try and come back 
within 10 minutes after the end of the last vote.
    And until such time, we are in recess. Thank you.
    [Recess.]
    Mr. Rouda. We are going to reconvene with recess being 
over, and I will remind all the witnesses you are still under 
oath.
    At this time I am going to recognize myself for five 
minutes of questioning, and Mr. Evers, I am going to turn to 
you first, if I may.
    How much involvement did you have with PFOA research and 
PFAS issues, more broadly, while employed at DuPont?
    Mr. Evers. I had access to seeing the documents while they 
were still available that disclosed concentrations in the 
employees, certainly, in products that were used particularly 
in the paper industry and what their health effects were.
    Mr. Rouda. Can you talk about that last phrase, the health 
effects? What access to information within DuPont were you 
provided regarding the negative health effects by being exposed 
to these chemicals?
    Mr. Evers. So DuPont had Haskell Laboratories, which is now 
a skeleton of its own organization, and they did very thorough 
jobs on trying to determine where the fluorochemicals were 
going, and where I worked at the Chambers Works plant I was 
particularly concerned about the products that came from these 
fluorochemicals.
    So the studies are kind of flawed to begin with. First of 
all, Haskell did a wonderful job of identifying every part of 
the human body and as part of EWG's submission of documents--
you can go back and find out the analysis that they did for a 
lot of employees.
    The flaw with their study was that they took the Washington 
Works employees and they were looking at their health effects 
to try to determine if there was something unusual opposite a 
control, and the control were other DuPont employees.
    So they found some that were elevated and some that were 
not. So the problem was with this whole study is that from the 
day I joined the DuPont company in 1981 after I had set my 
payroll to go to my bank I met with H.R. and they signed me up 
for the blood bank.
    I had to pay in Delaware to join the blood bank. Why would 
a company on every single employee sign them up for a blood 
bank?
    Mr. Rouda. Obviously, they were checking your blood levels 
for chemical levels on the blood stream.
    Mr. Evers. Chemical levels and in addition to that, it 
purged you.
    Mr. Rouda. And can I ask you as a followup to that, my 
understanding is DuPont tried to suppress evidence that they 
had regarding the ill health effects of the chemicals. Did you 
come across that at any time while you were at DuPont or after 
your time at DuPont?
    Mr. Evers. Okay. So when I presented the 3X higher levels 
of fluorochemicals that were being extracted from paper, I also 
presented the papers that showed that this was a situation 
where the fluorochemicals were not leaving the body.
    They were bioaccumulating. And so it is one thing to say 
that a dog will eat a thousand times the amount that it is 
realistic. But then it is another thing to say that over time 
these chemicals stay in your blood and don't leave.
    Mr. Rouda. Okay. So was that the basis of the--what they 
were trying to hide was the fact that the chemicals actually 
were not leaving the body; they maintained their presence in 
the bloodstream and accumulated over time?
    Mr. Evers. And they were also hiding the fact that these 
levels were being extracted in various ways that are now of 
concern. They were now coming out of the food wrap into your 
kids' ketchup.
    Mr. Rouda. Which they weren't supposed to do.
    Dr. DeWitt, in your written testimony you also reference a 
study sponsored by 3M Company which you state, quote, 
``demonstrated immune-related changes in monkeys, giving PFOA 
or related PFAS for 90 days.'' You also state that these 
studies were, quote, ``not part of the published literature,'' 
unquote, in the 1970's.
    I would like to enter a copy of this study into the record.
    Mr. Rouda. Dr. DeWitt, as a researcher, what would the 
study have told you about these chemicals?
    Ms. DeWitt. So these earlier studies would have told us 
that mammals given these chemicals have a response at the level 
of the immune system. We now know that humans also have a 
response at the level of the immune system.
    The immune system can be suppressed or it can be hyper 
activated. So you can get allergy, asthma, or a decreased 
response to vaccines.
    Had we known about these studies, we could have started 
additional studies with rodents earlier. We could have started 
additional studies or evaluations of humans earlier to gather 
more publicly available evidence earlier so that this hearing 
today could have been 10 or 15 years ago.
    Mr. Rouda. And can I ask you to expand on that in the sense 
that--the first panel was in here. We saw the horrendous 
situations they have gone through in their family, their 
friends, their neighbors, and that is where there is such a 
pervasive increase of chemicals in the bloodstream and the 
exposure that we see those types of outcomes.
    But what we perhaps don't know is the impact on all of us 
with either smaller doses, smaller impact of these chemicals 
being in our bloodstream, and I just want you to talk a little 
bit about the increased levels of inflammation, the increased 
levels of asthma and any other areas that you think that we are 
collectively suffering from but perhaps don't quite know all 
the ins and outs.
    Ms. DeWitt. Well, sure. I think a report came out in 2017 
indicating that there are 9 million premature deaths a year 
from exposure to environmental pollutants.
    It is the number-one cause of premature deaths in the 
nature and in the world, and it is the number-one cause of 
premature death in communities that carry a disproportionate 
burden of environmental pollutants and who don't have the money 
to protect themselves from the pollutants. It also 
disproportionately affects children.
    And so there are many different types of health effects. 
Some of the health effects associated with inflammation include 
cardiovascular disease, stroke, diabetes, obesity, et cetera, 
and PFAS may play a role in all of these diseases.
    Mr. Rouda. But without proper studies we will never have 
the true understanding of the implications of it being in our 
bloodstream to these degrees?
    Ms. DeWitt. I think we have enough data right now to say 
that there are diseases that are caused by PFAS. We have 
evidence from animals and we have mechanistic evidence to 
support what we are observing in humans.
    So I don't think there is really any doubt in the mind of 
most scientists.
    Mr. Rouda. Okay. Thank you for that very important 
clarification.
    With that, I would like to recognize for five minutes the 
ranking member, Mr. Comer.
    Mr. Comer. Thank you, Mr. Chairman, and many members in 
Congress and advocacy groups have been pressing the EPA to set 
a maximum containment contaminant level for PFOA, PFAS, 
demanding that the EPA move more quickly, as everyone would 
understand.
    Ms. Luxton, we have heard a lot of the discussion in the 
news about the need for a maximum contaminant--I am tongue 
tied--level.
    Ms. Luxton. We call it MCL.
    Mr. Comer. Right. In the Safe Drinking Water Act. Can you 
please elaborate a little more on the steps and the process to 
set an MCL, what is required and what does the agency need to 
do?
    Ms. Luxton. Yes, thank you for the question.
    The MCL is an easier way, but environmental law is rife 
with acronyms. But it is a four-step process and it is 
prescribed by law how those steps have to be laid out.
    The first two in the process have been done already. They 
are contaminant selection and PFOA and PFOS have been listed in 
both 2009 and 2016. It is a process that occurs every five 
years.
    The second is monitoring to collect nationwide data on the 
prevalence of these contaminants in water systems. PFOA and 
PFOS and four more PFAS compounds were identified in 2012.
    EPA, in its action plan and its regulatory agenda, has now 
said that it will take the next step, which is making a 
preliminary regulatory determination by the end of 2019 and a 
final one by the end of 2020.
    After that, the actual development of the drinking water 
regulation, or MCL, would take--would occur and that is 
required to be proposed within 24 months of the final 
regulatory determination.
    It can be at the beginning of that period of time. And then 
a final national and maximum contaminant level goal and maximum 
contaminant level that is required. Those are supposed to be as 
close to each other as possible.
    So it is a complicated process with legally required steps 
and a lot of scientific studies and evidence that needs to be 
considered in order to make it a regulation that will withstand 
judicial scrutiny.
    Mr. Comer. Talking about science, what role does science 
play in EPA's chemical regulatory process and what type of 
information does EPA consider as part of this process?
    Ms. Luxton. Well, it is a critical process. For any legally 
defensible final rule there has to be a basis in both science 
and the procedures have to be followed because if they are not 
the proposed and final rule will be struck down as arbitrary 
and capricious under the Administrative Procedures Act.
    That involves procedures for public comment and, again, an 
administrative record that is scientifically robust enough to 
justify the costs and benefits--the cost of the rule--because 
of the scientifically shown benefits of imposing it.
    The danger here if this isn't done right is that the rule 
will be struck down and we will be back to the starting point.
    So trying to shortcut or speed up the rules in a way that 
isn't carefully done can just cause more trouble than--can 
cause a lot of negative effects because it will spend a lot of 
time and won't produce effective results.
    Mr. Comer. Are there legal and other possible ramifications 
if EPA doesn't base its regulatory actions on sound science?
    Ms. DeWitt. Yes, and that is exactly where I was going with 
that last answer, that the net effect of not doing it right can 
lead to results that are--put you worse off than when you 
started. You have to start over again.
    Mr. Comer. What is the best way if you determine that 
water--the water levels are excessive with the PFAS and other 
chemicals, how do you rid that out of the water? I mean, is 
there a good enough filter process out there? Is the technology 
out there to be able to ever get that water safe again?
    Ms. DeWitt. Well, as we have heard in testimony earlier 
today, reverse osmosis is one of the recognized techniques for 
dealing with that. But when it comes to water systems there are 
needs for greater analytical methods and treatment methods, and 
we have also heard the disposal method is unclear.
    What do you do with all this PFAS when all these measures 
require it to be taken out of water treatment systems and 
potentially out of ground--you know, Superfund sites, all kind 
of things, and I don't think there is any consensus yet on the 
best way to deal with that.
    Mr. Comer. Thank you.
    Mr. Rouda. Thank you, Ranking Member Comer.
    The chair now recognizes Congressman Keller for five 
minutes of questioning.
    Mr. Keller. Thank you, Mr. Chair, and I would like to thank 
the panel and the previous panel for your testimony today.
    You know, we are examining the contamination threat posed 
by PFAS chemicals on our air, drinking water, groundwater, and 
food supplies.
    Chemicals are used to make--these chemicals, as we have 
noted, are used to make things, from nonstick surfaces to water 
repellants to fabrics, food packaging, all those things.
    And I know there has been proposals to regulate, roughly, 
5,000 of these PFAS chemicals as a class instead of 
individually.
    Ms. Luxton, just a couple questions, you know, following 
the testimony. I thought you had mentioned about research that 
has been done on PFAS chemicals. To what extent are the 
chemicals different--are different structurally? You know, is 
there any--do you have any information on that?
    Ms. Luxton. I am not a scientist, but yes, the studies show 
that there are tremendous differences among these compounds and 
not all of them are known. They are chemically different, 
structurally different. They have short chains or long chains, 
different half lives.
    Some of the testimony or some of the--one testimony in one 
report that I referenced talked about those differences and 
that they are not well understood.
    Those things can make a difference in terms of toxicity 
uptake, retention in the body, and metabolism including 
mechanisms of action within the body and whether they truly are 
toxic and to what degree.
    I mean, it is commonplace in toxicology to say the dose 
makes the poison, and so knowing what these particular 
substances are and their relative toxicity makes a great deal 
of difference.
    Mr. Keller. And then in order to be able to regulate them 
effectively it would be best to research them individually and 
they might have different regulations depending upon their 
chemical structure?
    Ms. Luxton. Yes. Ideally, in the best of all worlds, you 
would have the time and you could do that. But everyone is so 
concerned, understandably, about these compounds that one of 
the areas that is really being prioritized is trying to group 
them into different classes so that--and, again, by some of 
these characteristics that have different properties that 
relate to toxicity and other adverse effects.
    So the National Academy of Sciences report that I 
referenced, and it is cited in my written testimony, is--spends 
time talking about some of the more promising ways of doing 
that kind of classification to expedite this process.
    Mr. Keller. Okay, and that would tell us then how to best 
handle the chemicals if we were to do more research on those?
    Ms. Luxton. Knowing that would really go a long way in 
trying to manage the process of research and understanding of 
these substances and then regulation, yes.
    Mr. Keller. Okay. Have there been any other challenges that 
you have been made aware of through any of the research that 
you have done related to finding out how the chemicals differ 
and what we need to do to best protect our air, water, and food 
supplies?
    Ms. Luxton. Well, those are some of the most important, 
really, understanding the chemicals better, trying to get a 
handle on these very large numbers of compounds and how best to 
understand them, classify them, and manage them.
    Mr. Keller. Thank you. Thank you, Chairman. I yield back.
    Mr. Rouda. Thank you. We did lose a few members due to 
votes. So as such, I am going to do another round of 
questioning from the members here.
    And Mr. Comer or Mr. Keller, if either one of you would 
like to ask a few more questions you are more than welcome to 
have an additional five minutes.
    I am happy to go first if you would like me to.
    Mr. Comer. Go ahead.
    Mr. Rouda. Sure. Give you a minute to catch up.
    Mr. Comer. I have got it.
    Mr. Rouda. Ms. Luxton, let me start with you. The statement 
you just made--the dose is the poison--if any dose is poison, 
wouldn't we be better off not having any doses until we knew 
more about these chemicals rather than allow the chemicals to 
be used without knowing the full impact of them?
    Ms. Luxton. It is a good question, but we don't know if any 
dose is poisonous. Many--just to take an example, many 
essential elements----
    Mr. Rouda. Exactly. We don't know. That was the testimony 
earlier too, which would suggest that before it is introduced 
into our bodies via water, air, land, and otherwise, it would 
be good to know what the full impact of it is, especially since 
we have seen what the impact is on test animals.
    So I have a tough time understanding why we are supposed to 
have humans act as guinea pigs to figure out what is the right 
level. Is that what you are suggesting?
    Ms. Luxton. No, of course that is not what I am suggesting.
    We don't know what we don't know about many things. But our 
laws don't operate that way. Our laws require that there be 
some risk-based knowledge to justify regulating something, and 
for things where we don't have any reason to believe they are 
toxic.
    We have no scientific evidence of that. We can't ban them 
in advance, not to mention the next chemicals that may be out 
there that we don't know about right now.
    Mr. Rouda. Well, I hope we never get to a point in our 
country where any chemicals can be introduced and only until 
there is sufficient evidence to find that it has a material 
impact on our health that we can take action.
    That being said, I would like to move to the two 
commissioners because your states have implemented laws that 
far exceed in a positive way what the Federal Government has 
done so far.
    I would like to--two areas of exploration here that I would 
like to cover is, one, just having a better understanding that 
while you have implemented these thresholds how do you intend 
to enforce those who violate it and how do you want to be able 
to monitor it and have sufficient transparency and 
accountability?
    Ms. McCabe. For monitoring we are going to focus on the 
public water systems, which we are already monitoring, having 
issued the first MCL for PFNA in New Jersey last September.
    The water systems in New Jersey began monitoring for that 
compound. But they also find other PFAS. They will find PFOA 
and PFAS as well, and we are seeing those results already 
coming in and that will be phased in over the next two years.
    We know there is many more. We know we have GenX in New 
Jersey as well that we haven't specifically started the 
regulatory process for.
    But in monitoring for the ones that we have started, we are 
going to find a lot of information about where the problems are 
and then we will track down the sources from there and we will 
hold the responsible parties liable for the cost of treating it 
and preventing any further discharge.
    Mr. Rouda. And is that codified how you will hold them for 
the costs or do you--is that more taking legal action against 
them and recovering the costs?
    Ms. McCabe. It is by operation of our existing laws. Once 
we have made an MCL a standard for them that is legally 
enforceable then we can take action under a number of laws that 
we have in New Jersey that also are--have counterparts in the 
Federal Government. We have a Spill Act that is comparable to 
CERCLA, et cetera.
    Mr. Rouda. Commissioner Scott?
    Mr. Scott. Thank you.
    Similarly, again, we have done administrative rules, which 
have the force of law. So starting October 1, basically the 
fourth quarter of this year, all public water systems, so 
again, a lot of our drinking water in our state is private that 
is not regulated.
    The testing requirement will be now including the four PFAS 
substances that we are now regulating. So there will be a 
requirement every quarter for drinking water systems to 
monitor.
    Mr. Rouda. Just to clarify, you said four when we have 
heard numbers of 5,000. Is that four classes or four specific--
--
    Mr. Scott. Four specific. So I mentioned earlier in my 
testimony we had the dialog with our legislature, which 
resulted in a law.
    We felt there was data enough--the epidemiology and 
toxicology data for four of these compounds. We had enough--we 
had enough of the science for those four and those are the ones 
we have moved with.
    Mr. Rouda. Okay.
    Mr. Scott. So at the end of the four quarters, if drinking 
water systems above or the average is above, so if you are very 
high it could be--for first quarter--then you will have to--
that drinking water system would have to present a plan to us 
on how they would get compliance.
    Mr. Rouda. Mediation?
    Mr. Scott. Right. So it could be granulated activated 
carbon, reverse osmosis. It could be ion exchange. What we are 
already seeing is blending. So if you have multiple wells you 
can blend to get below the levels.
    Some, thankfully, we have--for other reasons, whether it is 
just an effect from byproducts, that type of thing, in the 
water chemistry there is what is called finishing going on. So 
they will just change their media more often.
    So we are seeing the--already being very proactive on that 
end. But we are very concerned about the cost to municipalities 
and drinking water systems and we are exploring options there.
    Mr. Rouda. And, Mr. Comer, if there is no objection, may I 
continue?
    Mr. Comer. Go on.
    Mr. Rouda. Thank you.
    The other question I wanted to ask the two of you is that, 
obviously, you have spent a lot of time and effort with your 
states and coming up with the appropriate legislation.
    What would you like to see the Federal Government do to 
address this issue? What are the key outcomes issues that we 
need to address?
    Ms. McCabe. Well, on the treatment end, as Commissioner 
Scott was just saying, this is going to be expensive so we are 
going to need some help. We are already challenged in our 
public----
    Mr. Rouda. Can you clarify? Water treatment or treatment of 
landfills and Superfunds?
    Ms. McCabe. Water. Water treatment.
    Mr. Rouda. Okay. Thank you.
    Ms. McCabe. Drinking water treatment, because when we first 
find it in the drinking water that is where we are aiming our 
concern right now.
    So when we find it, as Commissioner Scott was saying, you 
can treat it with carbon filters and reverse osmosis. But these 
things can be expensive and some of these communities that are 
going to experience the costs are small, and they will need 
assistance with that.
    We are already challenged in the Northeast, particularly 
with a lot of lead in our drinking water and we are using a lot 
of our SRF funding where we can to help communities with that. 
It is not enough of it so we will need more help on that.
    But on the front end of this, talking about the thousands 
of other compounds that are already out there and new ones that 
are probably being invented every day, where we really need 
help from the Federal Government is to use TSCA to get in front 
of this and to figure out how to direct the chemical companies 
that are making these new compounds to do that research, do 
those studies first before we allow these chemicals to be put 
in the marketplace.
    Mr. Rouda. Okay. Thank you.
    And let me turn to--actually, I mentioned this slightly 
earlier. I have introduced H.R. 2570, PFAS User Fee Act, where 
we would hold polluters accountable for their role in the 
crisis.
    The bill establishes a trust fund through user fees from 
PFAS manufacturers to pay for ongoing operations and 
maintenance costs of water treatment centers and plants to help 
remove PFAS chemicals, and the plan there was no less than $2 
billion a year in those fees, which I know is actually, no pun 
intended, a drop in the bucket still to address making sure 
that we have safe drinking water nationally.
    So you talked about what we need to do on that end. I would 
like to kind of go to those individuals that have been affected 
by PFAS, and can you talk a little bit, Doctor, about how do we 
address those who are having these incredible health care 
issues because of the contamination from PFAS?
    Ms. DeWitt. I think one of the things that we need to do 
and I need to do as a scientist is to help to educate 
physicians about pollutants and to bring physicians together to 
tell them about what pollutants might to do to individuals.
    So in terms of PFAS, we need to educate them about what 
they are, where they come from, what happens when they get into 
people's bodies, and what they can do to help their patients to 
do some medical monitoring to make sure that they can get ahead 
of any health effects that they might experience.
    Mr. Rouda. And what can we do as the public to find out 
what our personal levels of PFAS contamination is?
    Ms. DeWitt. Sadly, right now we don't have many 
alternatives. There aren't any clinics that you can go to to 
get your blood tested. You can become part of a biomonitoring 
study that the Centers for Disease Control and Prevention is--I 
think they are reviewing applications for those proposals this 
week. You could potentially be a member of another study group 
and find out what your blood concentration is.
    Mr. Rouda. So let me be clear here. If I want to go find 
out what my personal PFAS levels are you are saying it is 
pretty difficult to get that done, at best?
    Ms. DeWitt. Yes. It is extremely challenging and I think 
that has been a call from many different communities, ``How can 
I find out what is in my body? I don't know. There is no place 
I can send my blood.''
    There are some organizations that are doing affordable 
water testing. But as far as I know, there are no clinical labs 
that can routinely do testing that community members need to 
find out what is inside of their bodies.
    Mr. Rouda. Thank you. I may have some further questions.
    But with that, let me go ahead and yield to the Ranking 
Member Comer to ask questions.
    Mr. Comer. Just from the testimony today, I have learned 
that different states are already implementing certain types of 
testing.
    I am curious, Ms. Luxton, are there--are there concerns 
with states setting their own different levels of what is 
acceptable and what is not or are the states working with the 
EPA?
    Who is--who is the entity that determines which level is 
acceptable and which level is too high?
    Ms. Luxton. Well, that is a good question. I mean, we heard 
I think it was Commissioner Scott say that there is a patchwork 
of numbers, and that is true. We have heard different numbers. 
I think New Hampshire has one, New Jersey three. I am not sure 
about Michigan. I used to have the number.
    But they are very different, and so that lack of 
consistency is a question. There are many questions about 
analytical methods, how you can detect these compounds, 
particularly when it gets past some of the best known ones and 
treatments.
    So having different standards is an issue, and EPA is 
working through the process. I am not here to defend EPA and I 
think you have had an oversight hearing of them.
    Some of the legislation talks about expediting some of 
their steps. But that is--I think most of the states are 
calling for a national approach to this to have a consistent 
standard nationwide.
    Mr. Comer. Mm-hmm. You know, one of the--I was asked 
earlier if I had had many calls on this issue and from my 
district in Kentucky, and I had one.
    Actually, the Kentucky Professional Firefighters Union, 
when they came to meet with me, they brought this up because 
they knew that I was ranking member on the Oversight Committee 
and we had had one hearing on it, and they just said that this 
was something that they absolutely had to have in fighting 
fires.
    And I haven't talked to anyone at Fort Campbell or any of 
the military people or bases in my congressional district. But 
I just wanted to throw that out there when we are talking about 
possible solutions and uses of this. But another question I 
have is are all PFAS chemicals the same structurally?
    Ms. Luxton. Maybe others can address that as well.
    Mr. Comer. Yes.
    Ms. Luxton. But I think the answer is no. They are 
chemically different and structurally different.
    Mr. Comer. All right.
    Mr. Evers, do you want to--you would probably be the expert 
on that.
    Mr. Evers. Yes. So there are major differences between 
these chemicals and even when you talk about PFOA, as an 
example, or any particular, what they are doing is they are 
talking about the average of what is there. So in 
perfluoroalkyl chemicals they will say C8.
    But what they didn't tell you is that from the production 
of C6 there were some big molecules like C10, which they 
couldn't use. And so they blend that into the C8, and the C2s 
and the C4s--all these little cousins and aunts and uncle.
    They can't control a specific size, okay, and so you have 
this broad band of chemicals, and then they can put on 
different heads that love water, some phosphate groups--
ammonia, carboxyl groups on it. Then they can even make 
molecules that have twin tails, like twin dragons, you know, 
that have tails.
    So the number of chemicals that are out there from a single 
product is incredible, just from a single product. So the 
question comes back, how do you identify them, right. And so I 
was--I was talking with Ms. McCabe.
    She said what would be the silver bullet that you would use 
for controlling this, and I said actually the silver bullet 
isn't the toxicity.
    The silver bullet is the fact that it is in your blood, and 
what people don't realize is that when a fluorochemical, and I 
put a little fluorine atom on a carbon, is in your blood, the 
industry will say, well, it has a half life of nine years or 
four years.
    Okay. So if it has a half life of four years or nine years, 
that means half of it goes away. If it is not biodegradable 
where does it go?
    That is the issue, and I can tell you right now that we can 
take the most scholarly guys from the best universities, 
Ph.D.s, and they will all say the same thing. It doesn't go 
away. This is a manmade chemical. We just pass the baton to our 
generations of kids.
    In fact, if you were to incinerate and cremate me, I would 
technically be a fluorochemical hazardous source. The Teflon 
mesh that is used in my hernia produces a very toxic gas and 
decomposes to something called Devil's piss, which is 
hydrofluoric acid. You can't kill this beast. You can only 
control it.
    Now, why does publishing this--if you just put this--you 
know what an F minus is on a report card, right? It is not too 
good, right.
    But I have the right to know and the most aggressive law 
that I have ever seen in industry when I worked at DuPont at 
Chambers Works was the New Jersey Right to Know law.
    They didn't want an MSDS that said proprietary. If you 
wanted to keep it proprietary you still had to tell us what the 
chemical was. They had to know. But that is the important 
thing.
    So the public decides, do I want this in my blood. And 
don't talk to me about parts per trillion. Talk to me about 
number of molecules, because when you take the molecular weight 
times the Avogadro's number, you wind up with a thousand 
molecules in a liter of water.
    Mr. Rouda. Thank you.
    Congressman Levin from Michigan is with us and, without 
objection, I am going to allow him to ask a few questions. But 
before he does, since he just sat down, I am going to give him 
a few minutes to settle in, and I think we are going to be 
finished here in about 10 minutes or so, just to let everyone 
know what the timeframe is.
    I would like to give all the witnesses just a moment, 
because there has been a lot of testimony today from both 
panels, and Ms. Luxton, starting with you, if there is anything 
that you would like to clarify, add, that you have heard today 
that you think is important that you haven't had an opportunity 
say, please take a moment to do so.
    Ms. Luxton. Thank you, Chairman Rouda.
    I just wanted to pick up on something that Ranking Member 
Comer mentioned--the firefighting foam, which is one of the 
PFAS issues that has really gotten the most attention.
    What he said is right. At the moment, there doesn't seem to 
be a feasible alternative. And so when I have heard people talk 
about this, they say, then what do you do on a submarine if you 
don't use this substance--allow it to burn.
    So even in the legislation that has been proposed there is 
a phaseout time period to try and identify alternatives that 
are acceptable that really do work.
    So I think it is another example of the complexity of this 
issue where everyone is trying to find solutions and 
understanding how complex and what is needed to do it in a 
scientifically robust way really is a big challenge.
    Mr. Rouda. Thank you. And I have heard from California 
firefighters as well and the feeling is wanting to make sure 
that the exposure to it is nonexistent--that they have proper 
apparel to address it and that the use of the chemicals doesn't 
contaminate our groundwater.
    Mr. Sliver?
    Mr. Sliver. Yes, thank you, Chairman.
    So I think one of the things to emphasize here is our job 
one is protecting public health, and we know from our 
scientists that certain PFAS are harmful when ingested as 
through drinking water.
    And that is why Michigan went to a panel of scientists and 
asked them, look across the country and tell us your best 
advice which compounds we have defensible science for today to 
proceed with establishing state drinking water standards.
    We feel compelled to do that because we probably got the 
most comprehensive study of any state on what is in our 
community water supplies.
    We tested all of them, and so we have got a really good 
data set. And we now have health-based value recommendations 
from some of the top scientists in the country.
    And so we know from EPA's, you know, PFAS action plan that 
we are not going to see any MCLs out of them for years and they 
are only right now considering two.
    We have got scientists telling us look at seven. And so we 
are in that rulemaking process right now, like other states 
have been through, and we will have draft rules by October 1, 
which will lay a path forward to institutionalizing or 
memorializing this testing in our drinking water supplies and 
whatever mitigation is necessary, going forward.
    Mr. Rouda. Thank you, and I applaud your state for the 
testing that you have done throughout the state as well.
    Commissioner Scott?
    Mr. Scott. Thank you.
    Short term, again, I don't think we have a choice but to 
look at what science we do have and regulate on that end. As I 
alluded to earlier, destroying what is in the environment is 
going to be very important.
    So we have talked within our state and regionally about 
thermal oxidation, regional facilities, combining resources, 
that type of thing. That is important that we don't perpetuate 
the problem.
    Long term, I don't think playing whack-a-mole, if you 
understand the analogy, with--you know, we do four today and we 
are talking about 5,000, we will never finish that, that type 
of regulation.
    So I think long term I would call upon industry, EPA, and 
others to work together to get this out of the consumer stream 
to begin with.
    You are correct, there are some uses like firefighting 
foam. If today that is what is needed I certainly support that. 
In our state, we don't tell if you need Class B because you 
have a liquid fuel fire, we say go ahead and do that but let us 
know.
    We will help you contain it and we will remediate it. That 
is the important thing. But in the long term, there needs to be 
a better solution than that.
    Mr. Rouda. Thank you.
    Commissioner McCabe?
    Ms. McCabe. I understand about the need for the 
firefighting foam and to, you know, use a phase-out approach to 
that. But do you remember DDT?
    Mr. Rouda. Mm-hmm.
    Ms. McCabe. Everyone said, oh my God, you can't take that 
away. It will ruin our agriculture. We won't have enough food 
to eat.
    Well, we did. Necessity is the mother of invention. We are 
very inventive, we Americans. We can find other solutions. But 
someone needs to make us do it because the marketplace itself 
isn't going to do it, and that is where we need Congress.
    What you have heard from the states about what we are doing 
is what we can do. We are dealing with the past. We are dealing 
with the legacy of what has already been let loose out there 
that we are now finding out is in our drinking water and in our 
blood.
    We will do what we can with that. It would be better to 
have a national Federal rule. We don't like, you know, having 
all of this difference between the states. We don't like having 
to do 50 times what EPA could do once.
    We don't believe that you need years more of study to 
figure out that this is a problem. So we do want the Federal 
Government to do something about it.
    But most of all, we want the Federal Government to get a 
handle on what only the Federal Government can do, which is the 
interstate commerce part of this.
    The presumption should be that until they can show it is 
safe, it doesn't go into the marketplace. We shouldn't have to 
be scrambling to catch up with the science, which takes us 
years to figure out this was dangerous only after it is already 
in our bloodstream.
    Mr. Rouda. Good point. Thank you.
    Mr. Evers?
    Mr. Evers. The atomic bomb on PFAS went on December--on May 
15, 1998, and it was because there was a great law that the 
Federal Government had--is that going--time going? I can't see 
my time.
    Mr. Rouda. Well, if you keep it to 30 seconds to a minute 
that would be great.
    Mr. Evers. Okay.
    So it was at that time that they were required by law to 
report it within 24 hours and they got out of the business. A 
hundred and fifty million dollar business, they got out 
instantaneously.
    Your legislation putting a fund together is excellent. It 
provides a safe haven for all the guys who didn't realize that 
they were doing bad. But what it needs is transparency.
    It needs the ability that you say you want to be part of 
the insurance fund, fine. Tell me what you were using. Give me 
the list of all your customers, and that helps EPA. It helps 
the states identify where the point sources are.
    You cannot get government protection until you tell us 
where the problem is. And I would endorse not reusing activated 
carbon as a source for--it does a great job of stripping out 
the fluorochemicals but as we have also heard, we don't know 
what to do with it when we--when we got rid of it, you know, 
and the old equation of, well, it has got a half life in your 
blood--where does it go.
    Mr. Rouda. Mm-hmm.
    Mr. Evers. So I think you guys are doing a great job and I 
would also commend the Environmental Protection Agency. I would 
not be a witness if it weren't for the EPA. They came to my 
house with their black SUVs and T'd my car as I was leaving 
with my wife, and they said, we are the Criminal Investigation 
Unit from Environmental Protection Agency.
    Who knew, right? I said, this has got to be a car rip off 
thing here, you know. And I rolled down the window slightly. I 
said, let me see your badge, and he pulled out his 
Environmental Protection Agency badge and then he showed me his 
gun and the other agent was there said, whoa.
    I said, hey guys, I am on the same team here. I don't know 
how you found me.
    And we spent all night talking about sources of 
fluorochemicals. But you know what kept the big companies from 
harassing me?
    It was a criminal investigation, and the second a manager 
or an attorney from somebody who came to harass me said 
something, they got a note from the EPA that said, you are an 
obstruction to justice.
    So let EPA do what they need to do. Full transparency.
    Mr. Rouda. Thank you, Mr. Evers.
    Dr. DeWitt?
    Ms. DeWitt. Thank you.
    PFAS might be 5,000 different chemicals that are cousins, 
uncles, siblings, aunts. But they are all part of the same 
class, and like those relatives that don't go away, they are 
never going to go away. They are here with us forever.
    They can move from the environment into our bodies, and in 
their bodies they stick around for a while. They have long half 
lives, and when they are in our bodies they can interact at the 
level of molecules to change how our bodies work, how our 
bodies function.
    In some people, that bodily change might be cancer. In 
other people, it might be thyroid disease. In other people it 
might be increased allergy or asthma. In other people, it might 
be absolutely nothing.
    But these chemicals are able to get into our bodies and 
adjust our physiology--adjust how we function. The newer 
generation of PFAS are even more insidious because they are 
persistent.
    They are bioavailable. They can get into our bodies and 
they are very mobile so they can move around the environment a 
lot more rapidly.
    I can give a mouse an amount of PFOA, which is eight 
carbons--one of the legacies--at 75,000 nanograms per mL of 
PFOA in the mouse's blood. They will not be able to respond to 
a vaccine very well.
    I can give GenX to a mouse and it is 7,000 nanograms per 
mL. They won't be able to respond to a vaccine very well. GenX 
supposedly has a more favorable toxicological profile than 
PFOA. I think the key phrase here or the key word in that 
phrase is not favorable. It is toxicological.
    So these compounds are not safe. They are still toxic and 
we are continually exposed to them because they are still 
persistent and they can still move into our bodies.
    Mr. Rouda. Thank you, Doctor.
    At this time, the chair would like to recognize Congressman 
Levin from Michigan for five minutes of questions.
    Mr. Levin. Thank you, Chairman Rouda, and thank you so much 
for your leadership on this. I really appreciate it.
    This is a super important issue. I see I am surrounded by 
names of my colleagues from Michigan who presumably may have 
been here to question you earlier.
    This is a big deal for us and I am afraid I do feel like 
PFAS is the DDT of our--of our era and we are going to be 
dealing with this for a long time to come.
    So we have people from--officials from New Jersey, 
Michigan, New Hampshire, Democratic and Republican state 
governments, who are committed to addressing PFAS contamination 
within their own borders because, in part, the Federal 
Government has not acted and has not set maximum contaminant 
levels or MCL standards for the entire nation.
    I certainly commend the three of you for your efforts and I 
thank you for being here with us today.
    Commissioner McCabe, you pretty clearly stated that the 
EPA's PFAS action plan, which was released earlier this year, 
isn't sufficient to address the problem. Is that correct?
    Ms. McCabe. Yes, that is correct. We don't think that the 
timeframe is good enough and we don't think that the protective 
level that they are considering setting for an MCL is 
protective enough.
    Mr. Levin. So if I have my recent history right, you came 
to work for New Jersey after a stint with--as acting EPA 
administrator and acting Region Two administrator in the Trump 
administration. Is that right?
    Ms. McCabe. Among my other career jobs that were not 
acting, yes.
    Mr. Levin. Yes. So based on these experiences, do you 
believe the Trump administration will set an MCL for PFAS 
chemicals?
    Ms. McCabe. I have no confidence that they will set a PFAS 
MCL that will be protective.
    Mr. Levin. And why not?
    Ms. McCabe. There is a dialog that goes on that has to do 
with the Department of Defense, and the Department of Defense 
has a significant amount of exposure across the country and 
they have consistently argued that the level should be higher.
    So that pressure is no doubt going on in the discussions in 
the Federal Government. So regardless of what the career people 
at EPA and the career scientists may be saying, based on the 
latest available science about whether that 70 level is 
protective enough, and we don't think it is, the pressure right 
now will be to make it higher.
    Mr. Levin. Based simply on liability?
    Ms. McCabe. Yes.
    Mr. Levin. The DOD's--based on their liability we would 
endanger millions of Americans all around the country?
    Ms. McCabe. I would not think that anyone would consider 
doing such a thing. But I suspect the pressure is there.
    Mr. Levin. Thank you, Commissioner.
    Dr. DeWitt, you specialize in the health effects of 
environmental contaminants, specifically, PFAS chemicals. As 
the commissioner was saying, 70 parts is--you know, that is not 
a good standard.
    What do you think the maximum contaminant level of PFAS and 
PFOA in drinking water that could be considered safe for humans 
might be?
    Ms. DeWitt. Well, the right answer to that question is 
zero. We shouldn't be exposed to these synthetic chemicals that 
don't belong in our bodies.
    I think the appropriate question is what is an acceptable 
maximum contaminant level and that is what is acceptable for 
Ms. Donovan to have in her body and her children to have in 
their body. Something lower than 70 parts per trillion, likely 
in the single digits, would be acceptable.
    But zero really is the best answer because they shouldn't 
belong in our bodies.
    Mr. Levin. Thank you. Thanks very much.
    Mr. Sliver, I am glad to see you here. I am proud of the 
work that EGLE has done--the Michigan Department of 
Environment, Great Lakes, and Energy. Proud of our leadership 
in this.
    Can you talk a little bit about the science that you relied 
on when you were setting the maximum contaminant levels for 
Michigan?
    Mr. Sliver. Well, actually, we haven't set maximum 
contaminant levels yet. We asked----
    Mr. Levin. Okay. So tell me about the process you are going 
through.
    Mr. Sliver. Right. And so actually Dr. DeWitt would 
probably be better to explain what the methodical process they 
went through in looking at the information from across the 
country.
    She was one of our science advisory work group members that 
we asked to look at the available science out there and 
recommend health-based values to basically inform the MCL-
setting process, which is currently underway. MPART accepted 
their recommendations back at the end of June and we are now 
targeting October 1 to look at other factors in setting the 
MCLs.
    Mr. Levin. So my time is pretty much up. Let me just ask 
you, there are so many--there is, like, thousands of these 
chemicals.
    Will this be--what you do in October, hopefully, cover all 
of them or some of them or what is a regular Michigander, you 
know, to understand about that?
    Mr. Sliver. So we asked our science advisory work group to 
focus on the 18 PFAS that are part of the nationally recognized 
EPA method for testing drinking water and tell us which of 
those there is enough defensible science to proceed with 
setting MCLs, and they came up with seven.
    And so no groupings of those. It was seven that we will 
look at individually in the rulemaking process for municipal 
water supplies.
    Mr. Levin. Mr. Chairman, I just have to say I am so proud. 
But just think what a small start this is on dealing with a 
huge and very scary problem.
    Thank you all so much for coming today and thanks for 
giving me the time, Mr. Chairman.
    Mr. Rouda. Thank you, Congressman Levin.
    And thank you to all of the witnesses in both panels for 
bringing your personal stories as well as your expertise and 
helping all of us better address this crisis and advocate for 
meaningful solutions.
    Also, thank you to the Environmental Working Group for 
their work on this issue. I would like to submit their 
statement for the record. That includes critical information 
related to 3M and DuPont's knowledge of the dangers of these 
toxic PFAS chemicals.
    Without objection, so ordered.
    Mr. Rouda. During this hearing, many important questions 
related to what corporations and manufacturers knew, when they 
knew it, and the need to have answers and accountability from 
them.
    So I look forward to making sure that they provide answers 
to the American public.
    Finally, I would like to thank the staff of both the 
minority and the majority that are sitting behind Ranking 
Member Comer and myself.
    These guys do a heck of a job getting us ready for this and 
preparing us, and so thank you. We really appreciate your hard 
work.
    Finally, without objection, all members will have five 
legislative days to which to submit additional written 
questions to the witnesses to the chair, which will be 
forwarded to the witnesses for their response.
    I ask our witnesses to please respond as promptly as you 
are able, and this hearing is hereby adjourned.
    Thank you.
    [Whereupon, at 5:30 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
